<html>
<title> - THE WIRELESS PRIVACY ENHANCEMENT ACT OF 1999 AND THE WIRELESS COMMUNICATIONS AND PUBLIC SAFETY ENHANCEMENT ACT OF 1999</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
     THE WIRELESS PRIVACY ENHANCEMENT ACT OF 1999 AND THE WIRELESS 
        COMMUNICATIONS AND PUBLIC SAFETY ENHANCEMENT ACT OF 1999

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON TELECOMMUNICATIONS,
                     TRADE, AND CONSUMER PROTECTION

                                 of the

                         COMMITTEE ON COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                                   on

                         H.R. 438 and H.R. 514

                               __________

                            FEBRUARY 3, 1999

                               __________

                            Serial No. 106-2

                               __________

            Printed for the use of the Committee on Commerce


                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 55-150CC                   WASHINGTON : 1999
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON COMMERCE

                     TOM BLILEY, Virginia, Chairman

W.J. ``BILLY'' TAUZIN, Louisiana     JOHN D. DINGELL, Michigan
MICHAEL G. OXLEY, Ohio               HENRY A. WAXMAN, California
MICHAEL BILIRAKIS, Florida           EDWARD J. MARKEY, Massachusetts
JOE BARTON, Texas                    RALPH M. HALL, Texas
FRED UPTON, Michigan                 RICK BOUCHER, Virginia
CLIFF STEARNS, Florida               EDOLPHUS TOWNS, New York
PAUL E. GILLMOR, Ohio                FRANK PALLONE, Jr., New Jersey
  Vice Chairman                      SHERROD BROWN, Ohio
JAMES C. GREENWOOD, Pennsylvania     BART GORDON, Tennessee
CHRISTOPHER COX, California          PETER DEUTSCH, Florida
NATHAN DEAL, Georgia                 BOBBY L. RUSH, Illinois
STEVE LARGENT, Oklahoma              ANNA G. ESHOO, California
RICHARD BURR, North Carolina         RON KLINK, Pennsylvania
BRIAN P. BILBRAY, California         BART STUPAK, Michigan
ED WHITFIELD, Kentucky               ELIOT L. ENGEL, New York
GREG GANSKE, Iowa                    THOMAS C. SAWYER, Ohio
CHARLIE NORWOOD, Georgia             ALBERT R. WYNN, Maryland
TOM A. COBURN, Oklahoma              GENE GREEN, Texas
RICK LAZIO, New York                 KAREN McCARTHY, Missouri
BARBARA CUBIN, Wyoming               TED STRICKLAND, Ohio
JAMES E. ROGAN, California           DIANA DeGETTE, Colorado
JOHN SHIMKUS, Illinois               THOMAS M. BARRETT, Wisconsin
HEATHER WILSON, New Mexico           BILL LUTHER, Minnesota
JOHN B. SHADEGG, Arizona             LOIS CAPPS, California
CHARLES W. ``CHIP'' PICKERING, 
Mississippi
VITO FOSSELLA, New York
ROY BLUNT, Missouri
ED BRYANT, Tennessee
ROBERT L. EHRLICH, Jr., Maryland

                   James E. Derderian, Chief of Staff
                   James D. Barnette, General Counsel
      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

   Subcommittee on Telecommunications, Trade, and Consumer Protection

               W.J. ``BILLY'' TAUZIN, Louisiana, Chairman

MICHAEL G. OXLEY, Ohio,              EDWARD J. MARKEY, Massachusetts
  Vice Chairman                      RICK BOUCHER, Virginia
CLIFF STEARNS, Florida               BART GORDON, Tennessee
PAUL E. GILLMOR, Ohio                BOBBY L. RUSH, Illinois
CHRISTOPHER COX, California          ANNA G. ESHOO, California
NATHAN DEAL, Georgia                 ELIOT L. ENGEL, New York
STEVE LARGENT, Oklahoma              ALBERT R. WYNN, Maryland
BARBARA CUBIN, Wyoming               BILL LUTHER, Minnesota
JAMES E. ROGAN, California           RON KLINK, Pennsylvania
JOHN SHIMKUS, Illinois               THOMAS C. SAWYER, Ohio
HEATHER WILSON, New Mexico           GENE GREEN, Texas
CHARLES W. ``CHIP'' PICKERING,       KAREN McCARTHY, Missouri
Mississippi                          JOHN D. DINGELL, Michigan,
VITO FOSSELLA, New York                (Ex Officio)
ROY BLUNT, Missouri
ROBERT L. EHRLICH, Jr., Maryland
TOM BLILEY, Virginia,
  (Ex Officio)

                                  (ii)


                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Amarosa, Michael, Vice President of Public Affairs, 
      TruePosition, Incorporated.................................    39
    Dempsey, James X., Senior Staff Counsel, Center for Democracy 
      and Technology.............................................    32
    Finnerty, Maureen, Associate Director, Parks Operations and 
      Education, Department of the Interior......................    22
    Hanna, Captain Joseph L., Richardson Texas Police Department, 
      on behalf of the Association of Public-Safety 
      Communications Officials International, Incorporated.......    18
    Sugrue, Thomas J., Wireless Telecommunications Bureau Chief, 
      Federal Communications Commission..........................    12
    Wheeler, Thomas E., President and Chief Executive Officer, 
      Cellular Telecommunications Industry Association...........    25
Material submitted for the record by:
    Dukes, Jackie N., President, Rural Cellular Association, 
      prepared statement of......................................    53

                                 (iii)


     THE WIRELESS PRIVACY ENHANCEMENT ACT OF 1999 AND THE WIRELESS 
        COMMUNICATIONS AND PUBLIC SAFETY ENHANCEMENT ACT OF 1999

                              ----------                              


                      WEDNESDAY, FEBRUARY 3, 1999

              House of Representatives,    
                         Committee on Commerce,    
                    Subcommittee on Telecommunications,    
                            Trade, and Consumer Protection,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:30 a.m., in 
room 2123 Rayburn House Office Building, Hon. W.J. ``Billy'' 
Tauzin (chairman) presiding.
    Members present: Representatives Tauzin, Oxley, Stearns, 
Gillmor, Deal, Largent, Cubin, Shimkus, Wilson, Pickering, 
Fossella, Blunt, Ehrlich, Markey, Gordon, Eshoo, Engel, Wynn, 
Luther, Sawyer, Green, and McCarthy.
    Staff present: Tricia Paoletta, majority counsel; Mike 
O'Reilly, majority professional staff; Cliff Riccio, 
legislative clerk, and Andy Levin, minority counsel.
    Mr. Tauzin. The subcommittee will please come to order. 
Good morning and welcome to the Subcommittee on 
Telecommunications, Trade, and Consumer Protection's first 
hearing of the 106th Congress. It is with great pleasure that I 
welcome back my colleagues and I wish now to extend a warm 
welcome, indeed, to our new members of the subcommittee, some 
of whom have arrived and others perhaps who have not arrived 
yet.
    Let me, first of all, welcome--let us see who is here. I 
see Mr. Roy Blunt. Roy Blunt was born on--let us see--January 
10, 1950. I don't know why I'm doing this. I am not going to do 
that. And was elected to the Congress in 1996 and is in his 
second term. What is interesting about Roy is that Roy was just 
selected, by the way, members, as the member to take the place 
of our new Speaker, Denny Hastert, as the Chief Deputy Majority 
Whip, and, as I read that position at the fast speed of events 
lately, he could well be our Speaker in the next few months. I 
want you to welcome our new member, Roy Blunt.
    And I am going to yield to my friend, Mr. Markey, for an 
introduction as well.
    Mr. Markey. Thank you, Mr. Chairman. We have one new member 
this year, who is Bill Luther from the State of Minnesota. The 
two big stories in Minnesota this year, of course, Jesse ``The 
Body'' Ventura becoming Governor and Bill Luther becoming a 
member of this subcommittee.
    And we only accept the very best Members of Congress on 
this subcommittee. This is a winnowing process which has 
ultimately identified you, Bill, as one of the superior Members 
of Congress, and we very much look forward to having you as 
part of this committee that does try to work as much as 
possible with the chairman in a bipartisan fashion to craft 
telecommunications legislation. We very much appreciate 
everything you have--I know it was a big effort for you to get 
on this committee and then to pick this subcommittee. We very 
much appreciate that.
    Mr. Tauzin. Welcome, Bill. You have much too much hair to 
make it in the wrestling ring.
    I also want to welcome Mr. Chip Pickering of Mississippi, 
who is also in his second term and is a dear friend. And we are 
delighted. This is his second big attempt to get on the 
committee and he had to fight like a demon to get here. I want 
to welcome him and I assure you, Mr. Markey, he is a another 
bright star that is going to add a great deal to our committee. 
And, Chip, welcome to the subcommittee.
    And also I want to welcome as new to the subcommittee 
Barbara Cubin, who has been on the full committee before, but 
who has just joined our subcommittee. We all know Barbara's wit 
and charm and great intelligence, and we welcome you, Barbara, 
to our committee.
    Mr. Markey. Is it her birthday today?
    Mr. Tauzin. No, no birthdays.
    And we also have two other members that I want to 
acknowledge: Vito Fossella of New York, who will be joining the 
subcommittee, and also Mr. Bob Ehrlich, who will be joining the 
subcommittee.
    So we have now filled in our ranks and we will begin our 
work today. Our work today is to receive testimony on the 
Wireless Communications and Public Safety Act of 1999, as 
introduced by, indeed, my good friend and colleague Mr. 
Shimkus, and the Wireless Privacy Enhancement Act of 1999 as 
introduced by, indeed my good friend again, the gentlelady from 
New Mexico, Ms. Wilson.
    The bills are based on two wireless bills introduced by 
myself and others and considered by the Commerce Committee last 
year: H.R. 3844, the E911 bill and H.R. 2369, the scanner bill. 
Just to give you a little bit of history on these bills, H.R. 
2369 passed the House on March 5, 1998, with a bipartisan vote 
of 414 to 1. However, the Senate did not take the bill up last 
year. H.R. 3844 was voted out of the committee on August 5, 
1998 with a unanimous voice vote. And although Senator McCain 
introduced a companion bill last summer, the bill was not 
marked up before the Senate recess sine die for the 105th 
Congress.
    Over 60 million Americans carry wireless telephones. Many 
carry them for safety reasons. People count on their phones to 
be the lifeline in emergencies. A parent driving an interstate 
highway with babies in the back seat draws comfort from knowing 
that, if the car is involved in a crash, he or she can call 911 
for help and an ambulance will be rolling in seconds. An older 
American driving alone on a long trip feels safer knowing that, 
if an accident occurs or sudden illness strikes, he or she can 
use a wireless phone to dial 911 for help and State police will 
be on the way. And hunters and fishermen in South Louisiana 
know that, even in their pirogues and their duck blinds and 
deer stands, if something goes wrong, they can dial 911 and 
there should be help if there is a problem.
    In many parts of our country, when the frantic parent or 
the suddenly disabled older person or the hunter or fisherman 
punches 911 on the wireless phone, nothing happens. In those 
locations, 911 is not the emergency number. The ambulance and 
the police will not come; you may be facing a terrible 
emergency, but you are on your own because you don't know the 
local number to call for help in that emergency.
    This bill will help fix that problem by making 911 the 
number to call in that emergency anytime, anywhere. The rule in 
America ought to be uniform and simple: If you have an 
emergency wherever you are, dial 911.
    Regarding the Wireless Privacy Enhancement Act, last year's 
hearing was astonishing. We learned that off-the-shelf scanners 
are so easily modified to turn them into electronic stalking 
devices that we actually did it within a few seconds here in 
this committee room. And, as you remember, we all listened into 
that private call Mr. Markey made plotting to overturn and 
overthrow this committee. I want you to know that this bill 
will not only fix that problem with the scanners, but we have 
also reached an accord with Mr. Markey and we are now friends 
again.
    Although the current law and the FCC rules prohibit such 
eavesdropping, the technology is readily available to intercept 
cellular phone calls. We learned at the hearing that some 
people believed that present law did not prohibit modifying 
these scanners to turn them into eavesdropping devices. In 
fact, a whole modification industry had developed that was 
openly advertising in print media and over the Internet, 
complete with easy-to-follow instructions. This is alarming, 
and we look forward to hearing from our witnesses today as we 
address these two issues.
    As a side note, 1997 became the first year in American 
telecommunications history that Americans bought more cordless 
phones than wired phones. We have crossed a remarkable 
threshold in the way in which Americans communicate. Now 
cordless phones include those cordless phones used within the 
house, but, nevertheless, I don't have to tell you, 
intercepting conversations on those phones is even easier today 
than intercepting conversations on the wireless cellular phone 
in your automobile.
    Today we hope to begin addressing those serious American 
concerns about privacy and about safety, when it comes to using 
this wonderful wireless technology.
    I am pleased now to yield to my friend Mr. Markey for an 
opening statement.
    Mr. Markey. Thank you, Mr. Chairman. I want to thank you 
for calling this hearing today.
    As more and more Americans use wireless phones, wireless 
service becomes less and less perceived as an ancillary, 
discretionary service. There's no question that every day, as 
you have just pointed out, Mr. Chairman, that more consumers 
will increasingly be relying on this technology for both 
business and safety. A natural result of the proliferation of 
this wireless phone technology is that many consumers will use 
them to call for help and assistance in time of emergency. 
Indeed, many wireless carriers actively promote their service 
to consumers as safety devices. And this reemphasizes the need 
to make this promise a reality for wireless communications.
    One piece of legislation that has been recently 
reintroduced is the wireless scanner legislation that the 
committee and the House of Representatives overwhelmingly 
approved last session. That legislation modifies wireless 
scanner prohibitions contained in the Communications Act and 
updates them to address digital wireless technologies. The 
legislation also clarifies our intention that legally protected 
frequencies should not be readily available to scanner 
enthusiasts who buy scanners for entertainment but not to 
eavesdrop on their neighbors.
    The second piece of legislation before us this morning 
seeks to enhance public safety by making 911 the national 
public safety designated number. The bill also includes a 
provision that I added to last year's wireless 911 legislation 
to protect personal privacy. Information-rich location systems 
that do wonders to help save lives on our Nation's roadways 
also pose significant risks for compromising personal privacy 
as the ability to locate and track individual's movements 
throughout society become available.
    The recent episode surrounding Intel's new Pentium III 
microprocessor highlights how technology designed and developed 
for one purpose, such as security, can significantly undermine 
personal privacy simultaneously. Fortunately, technology itself 
does not predetermine how other societal values are balanced in 
products and services, and Intel quickly reversed course, 
announcing it would redesign the chip to better balance between 
commercial security and personal privacy issues.
    The privacy amendment I offered last year, which is 
contained in the bill again this morning, seeks to balance 
commercial public safety and personal privacy issues by 
ensuring that location information will not be used except for 
911 emergency purposes or with the express prior approval of 
commercial for any ancillary services that wireless carriers 
may commercially offer utilizing the location technology. I am 
glad that the industry supports this legislative approach and I 
am hopeful that the committee can move quickly to approve both 
pieces of legislation.
    On a final note, Mr. Chairman, the legislation this year 
does not contain provisions addressing tower siting on Federal 
property. I hope that we can continue to pursue issues related 
to this as the year proceeds. In particular, the utter lack of 
common sense, expedited process to place towers where there are 
currently pressing public safety concerns such as Rock Creek 
Park, is mystifying. It seems to me, Mr. Chairman, that the 
government ought to be able to figure out how to accommodate 
towers on park land where the Park Service itself has 
constructed buildings, has a gigantic parking lot, and a 
stadium tennis court in the middle of an urban area. These are 
not wilderness areas. They are multiple-use, urban green space 
whose essential character will not be compromised by an 
occasional tower.
    Mr. Chairman, you and I have worked together on this issue, 
and I think that Rock Creek actually serves as a perfect 
example of what has to be done in order to change----
    Mr. Tauzin. Would the gentleman yield?
    Mr. Markey. I would be glad to yield.
    Mr. Tauzin. I am confused. We had a hearing a year ago and 
I was told at that hearing--I think you were there and you got 
the same assurances--that that would be solved in 60 days. Have 
60 days passed? Have I missed something?
    Mr. Markey. I think we used the old budgetary counting on 
this, Okay? And I don't think they have upgraded at the Park 
Service to use the new, modern, accurate numbers that we are 
using in government today. And you know what I recommend to 
you, Mr. Chairman? Maybe you and I and any other members, 
especially those in the Bell Atlantic service like Mr. Wynn, 
maybe we could pay a visit out to this facility, so that we can 
see what the difficulty is in making sure that Rock Creek has, 
in fact, accommodated the needs of consumers.
    Mr. Tauzin. Well, I'd like to go with you, Mr. Markey, but 
what would happen if we got mugged? Who would we call? How 
would we get help?
    Mr. Markey. It is a good question. I think Mr. Wynn would 
probably be able to help us out in that situation.
    Mr. Tauzin. Okay.
    Mr. Markey. I have great confidence in his ability to 
protect us in this instance.
    Mr. Wynn. If I may interject, I refer you to Delegate 
Norton.
    Mr. Markey. So perhaps we could do that, Mr. Chairman? Take 
a little field trip some morning?
    Mr. Tauzin. I think that is a good idea.
    Mr. Markey. Great.
    Mr. Tauzin. I thank you, Mr. Markey.
    Next I would like to recognize the vice chairman of our 
subcommittee, the gentleman from Ohio, Mr. Oxley, for an 
opening statement.
    Mr. Oxley. Mr. Chairman, I waive my opening statement.
    Mr. Tauzin. All right. Let me do it this way: Are there any 
other members who wish to make an opening statement? The 
gentleman from Florida, Mr. Stearns.
    Mr. Stearns. Thank you, Mr. Chairman.
    When we worked on the emergency 911 bill during the last 
Congress, I think all of us here believed that it was a good 
work product to alleviate the disparities in the emergency 
system for wireless communication. Unfortunately, as often 
happens here in Congress, we didn't think through some of the 
localism issues in the bill, like granting wireless providers 
access to Federal sites to deploy necessary equipment for 
transmission of their networks. It is a necessary imperative to 
allow our local cities and counties to play a primary role in 
tower siting issues that affect their local communities. At the 
same time, by removing the Federal leasing provisions of the 
bill, we may have undercut the necessary funding to support a 
seamless 911 system for wireless throughout the Nation.
    Now in the original bill, Mr. Chairman, in the last 
Congress, H.R. 3844, the funds for Federal leasing would have 
been used to upgrade the existing public safety answering 
points so that emergency calls could be properly and 
effectively routed to police, fire, and health emergency 
response providers in order to avoid situations where a citizen 
faces a dire emergency and they cannot use their wireless 
device because of dead zones. The funding would also have been 
used for grant and research funding. Under this new version, we 
will only require the FCC to lend technical support to the 
States in the development of statewide PSAP upgrade plans 
through consultations with interested parties.
    My fear is that a national seamless emergency 911 system 
will be delayed through difficulties establishing the necessary 
upgraded standards. I foresee that certain States will develop 
more efficient and orderly systems while others lag behind 
which, unfortunately, may lead to continued tragic situations 
where emergency personnel cannot reach those in distress. I 
hope, as we proceed to pass this legislation through our 
committee, more thought can be focused on resolving some of 
these possible inequities in deploying a 911 system.
    I would also like to share the concern that my colleagues 
raised during the process last Congress regarding privacy 
standards. That is, any technology developed and put in place 
to locate the wireless user for emergency services is not used 
for commercial purposes. I believe such privacy protection for 
these situations must be required.
    One provision that I think is greatly important in this new 
version is the extension of liability protection for those 
wireless providers who have to carry emergency calls on their 
systems and help provide emergency services. Wireless providers 
should have equal protection under the law as wireline 
providers do.
    Finally, Mr. Chairman, I believe the second bill under 
discussion, the Wireless Privacy Enhancement Act, will be 
effective as it was in the last Congress, after making the 
necessary changes to protect the needs of the amateur radio 
community and the needs of news organizations and others who 
rely on scanners to perform their duties.
    I look forward to both bills being marked up, out of our 
subcommittee and the full Commerce Committee, so they can reach 
the House floor very soon. Thank you, Mr. Chairman.
    Mr. Tauzin. Thank you very much. The gentlelady from 
California, Ms. Eshoo.
    Ms. Eshoo. Thank you, Mr. Chairman. It is nice to be back, 
and welcome to the new members of the committee. I think that, 
speaking from my own experience, that this is going to be an e-
ticket for you. This is a great subcommittee that has really 
produced some very important pieces of legislation and I am 
proud to be a part of the subcommittee and work with you, Mr. 
Chairman, and all the members that are here.
    I think that this is important legislation that we are 
having hearings on today, the two bills. Of course, we haven't 
had too much time to see them because we are just starting up 
but, nonetheless, they are important for many reasons for the 
people in our country.
    We have been told that the Wireless Privacy Enhancement 
Act, which will protect the wireless telephone user, is 
essentially the same bill this committee and the full House 
passed overwhelmingly in the last Congress. This being the 
case, then the bill should receive quick approval.
    The second piece of legislation we are addressing today is 
the Wireless Communication and Public Safety Act of 1999. These 
titles get longer and longer, don't they? It is legislation 
that, simply put--I think in many people's views--this is going 
to save lives.
    This safety legislation accomplishes two important public 
policy goals. First, it designates a national universal number 
of 911 and, second, it instructs the FCC to do more in making 
this critical issue a priority. While this legislation 
accomplishes these goals, I don't really think it goes far 
enough in addressing the E911 problem. I think that it is 
significantly less substantive than the bill we passed last 
year.
    Mr. Chairman, last year you were a strong advocate for 
addressing this problem of improved emergency care and cash--
crash prevention. I don't know if we want to get into ``cash 
prevention.''
    That is a good slip of the tongue, whatever that means.
    Through your own personal experiences as well as the 
knowledge you have gained in studying the issue, you became a 
champion for the cause. I know you are committed to providing 
real solutions to the problem. So I think that this safety 
legislation is important and it should be passed, but I also 
believe that we need to do more and I hope, as further 
legislation on this issue is introduced, that we can count on 
your support.
    Mr. Tauzin. I thank the gentlelady, especially for her warm 
words, again, of welcoming.
    Indeed, I want to welcome you all again to this year's 
work. We have got a great subcommittee, great new members, and 
we are going to have a lot to do, so hang on tight.
    Any other members wishing to make an opening statement? The 
author of the bill, Mr. Shimkus, for an opening statement.
    Mr. Shimkus. Thank you, Mr. Chairman. I just want to thank 
you for allowing me to put my name on this bill. This bill is 
slightly changed. We have addressed the privacy concerns. We 
have addressed the tower sitings. There may be some 
shortcomings. I think those shortcomings come with the fact 
that, with the tower siting issue, there is a loss of revenue 
and our ability to do some others things that were addressed. 
But this is legislation that can move and it is legislation 
that everyone's name really could be on it since there was a 
bipartisan consensus that we really want it. I want to thank 
the chairman for allowing me to be the named individual.
    Last Congress, we heard hearings about lives that were 
saved. And that is what this legislation is designed to do, is 
to save lives. I even recounted my story of late one night 
driving back from the district, making a call on my cell phone. 
I look forward to the trip to Rock Creek Park if and when there 
is a tower there.
    There is another problem, Mr. Chairman. Unless we pass this 
legislation, we will not be sure what number to call. Will it 
be 911? Will it be *55? Will it be numerous other numbers that 
are across this country? And that will be addressed in this 
legislation establishing one number nationwide. I think we are 
going to hear testimony to that effect, and I thank you, Mr. 
Chairman.
    Mr. Tauzin. Will the gentleman yield for a second?
    Mr. Shimkus. I will.
    Mr. Tauzin. Just to point out the other incredibly 
important safety aspect of the gentleman's legislation; that is 
that wireless phones should be locatable. It will do us little 
good to call 911 if, on a wireless phone, emergency help can't 
find you. This bill will provide that capability and will help 
make sure that, when someone dials 911 and emergency help is 
obtained, they know where to go. It, hopefully, will lead to 
the day when our automobiles will be smart enough to 
communicate directly when we have an accident with emergency 
help. So I want to thank the gentleman for agreeing to lead 
this effort this year and encourage him in the legislation.
    Any additional opening statements on this side? How about 
this side? Any members? The gentlelady, Ms. Wilson, the author 
of the privacy bill, Ms. Wilson, for an opening statement.
    Ms. Wilson. Thank you, Mr. Chairman. I also am very pleased 
to be the person who is trying to coordinate this effort this 
year and I am very pleased that there is such a large number of 
members of this subcommittee who are cosponsoring this again 
this year.
    Sixty-eight million Americans have some form of cell phone 
or digital phone or those new personal communication services 
that give you everything from video to paging and messaging and 
caller ID, sometimes on something as small as a wristwatch. But 
the law has not kept up with the technology and that is what 
this bill is intended to do.
    People expect cell phones to be private. They act as if 
they are. But they are not. And while Mr. Markey was here last 
year plotting the overthrow of the committee while everyone 
else tuned in, I was back in New Mexico learning the same 
lesson in a little bit different way when, after my second 
child was born, I heard voices coming from the baby's room, 
which happened to be my neighbor's phone being picked up on the 
baby monitor.
    The modification of scanners to allow eavesdropping is not 
clearly prohibited by law and that is what this bill does. It 
updates the scanner manufacturing ban to new wireless 
frequencies. It prohibits the modification of scanners to 
intercept calls. It makes it illegal to intentionally intercept 
or divulge the contents of private radio communications. And it 
increases the penalties for violators and requires the FCC to 
investigate rather than the confusing system now where it is 
either the Department of Justice or the FBI.
    In another place and another time, another context, it was 
once said that gentlemen shouldn't read each other's mail. 
Well, gentlemen shouldn't listen to each other's cell calls 
either. And that is what this bill is about.
    Thank you, Mr. Chairman.
    Mr. Tauzin. Thank you, Ms. Wilson.
    Do you represent Roswell, New Mexico?
    Ms. Wilson. No, sir, I do not.
    Mr. Tauzin. Okay. I wondered if maybe those voices you were 
hearing were coming from somewhere else, though. I thank the 
gentlelady for agreeing to lead this effort and we welcome our 
first panel.
    [Additional statements submitted for the record follow:]
Prepared Statement of Hon. Barbara Cubin, a Representative in Congress 
                       from the State of Wyoming
    Thank you, Mr. Chairman, for holding the first of what I'm sure 
will be a series of insightful, helpful, and interesting hearings on 
telecommunications and technology issues. I am excited to be on the 
Subcommittee and look forward to working with you and the other members 
of the Subcommittee on these and other issues.
    Wireless telephone service is the fastest growing segment of 
telecommunications services. Cellular telephones are so popular now 
that they are actually being sold in 7-11 and WalMart.
    Wyoming, being one of the most rural states in the U.S., benefits 
greatly from wireless telephone service. Although much of the state is 
made up of ``dead zones,'' much of the state has partial or full 
service, making it possible to at least make a phone call from your 
vehicle when you're traversing the vastness of the state.
    Many people in rural areas have a wireless telephone out of 
necessity. People in the West may travel 50 miles or more without 
seeing a town with a pay phone. Wireless phones are useful for calling 
in traffic accidents and crime reports. The most important use, 
however, is for personal safety.
    That is why I believe the Emergency 911 number must be universal. 
For those who travel from one state to the next, it would be virtually 
impossible to remember another state's emergency number if it weren't 
911. Without the universal 911 number, response times for critical 
emergencies would be delayed; lives would be endangered.
    I supported the Wireless Communications and Public Safety Act when 
it was introduced by Chairman Tauzin during the last Congress and I 
intend to support it again in the 106th Congress.
    The privacy of wireless communications is extremely important and 
an issue I am very interested in. Although the airwaves are public, 
phone calls over those airwaves are and should continue to be private. 
If current laws do not clearly state that eavesdropping is a serious 
crime, we must act to ensure that the law is crystal clear in this 
regard.
    The Wireless Privacy Act, of which I am an original cosponsor, does 
just that. The bill makes it very clear that modifying a scanner to 
listen in on wireless communications is illegal and calls on the 
Federal Communications Commission (FCC) to strengthen its rules to 
prevent the modification of scanning receivers.
    The two bills which we are here to discuss today are thoughtful 
ways in which to address the problems associated with wireless 
communications. I commend the Chairman and Congresswoman Wilson for 
their work on these bills and look forward to their passage.
    Again, Mr. Chairman, thank you for holding what looks to be a very 
insightful hearing. I look forward to hearing from the witnesses.
                                 ______
                                 
 Prepared Statement of Hon. Tom Bliley, Chairman, Committee on Commerce
    I commend Chairman Tauzin for holding this hearing today. It is the 
first hearing of the 106th Congress in the Commerce Committee.
    The hearing represents a direction that you are going to see early 
in this Congress. We are going to spend the early months moving bills 
that had wide support but didn't quite make it through last Congress.
    Today, we are going to hear about two bills that the Subcommittee 
and the Full Committee considered in depth last Congress. They are 
important initiatives that deserve our attention.
    It is noteworthy that as we approach the Third Anniversary of the 
Telecommunications Act of 1996, we deal with two bills that promote 
consumer welfare. The Telecom Act was about and is succeeding in 
bringing the benefits of competition to consumers. Consumers are 
benefitting from lower prices, better services, greater innovation and 
new technologies because of the Telecom Act.
    The first bill before us deals with wireless communications 
privacy. The bill has two fundamental purposes: close some perceived 
loop-holes with current privacy protections and make it more difficult 
for consumers to alter scanners for illegal purposes.
    The scanner bill is properly balanced to increase the privacy 
protections afforded wireless users while not infringing on reasonable 
use of scanners. For instance, we want cellular and P-C-S 
communications protected from interception. Being from Richmond, I know 
we have a few NASCAR fans in our nation. Scanners can be used to 
enhance the racing experience and we have taken care of that in the 
bill.
    The Federal government can only do so much to protect privacy. But 
when we have an opportunity to promote privacy without infringing on 
other legitimate interests, we should move forward. We all have an 
interest in protecting personal privacy. If we do not act to protect 
privacy of personal communications, we all stand to lose. Recent 
reports indicate that Tom Cruise and Nicole Kidman may move to 
Australia because they want more privacy for their family than can be 
offered in Hollywood. This is not too surprising given the nature of 
Hollywood, but this decision comes just two months after a photographer 
allegedly intercepted a cellular communication between the two. Is this 
a coincidence?
    The second bill--wireless E-9-1-1--is a slimmed down version of a 
bill we moved last year. We reluctantly removed the federal land siting 
provisions, since those proved controversial to land managers. While I 
don't mind a good fight, I don't want to hold up efforts on setting a 
national 911 number for emergency calls and encouraging the rapid 
deployment of wireless services. If necessary, we will revisit the 
removed portions at a later time.
    The bill before us will do a number of things to help consumers and 
wireless companies promote public safety. For instance, promoting a 
universal emergency telephone number for consumers to use will reduce 
confusion and improve emergency care. As consumers become more 
untethered, we can ensure that they don't have to be unsure whether the 
proper number to summon someone to their rescue is ``9-1-1'' or ``star-
7-7'' or ``pound 5-5''. Dialing one number will bring the desired 
response. The bill also properly retains the privacy protections and 
liability parity provisions from last year's bill, in order to provide 
the appropriate incentives to wireless carriers to aggressively build 
out these networks that can do so much to promote public safety and, 
convenience.
    On a related point, I'd note that Virginia Governor Gilmore 
recently announced members to serve on the Wireless E-9-1-1 Service 
Board. The board is intended to address funding and safety issues for 
emergency calls made by wireless communications users in Virginia. I 
commend Governor Gilmore for his leadership on promoting wireless 
safety. I hope the witnesses will be able to provide a picture of what 
the status is in other States on deploying a communications emergency 
infrastructure.
    I thank the Chairman.
                                 ______
                                 
Prepared Statement of Hon. Bobby L. Rush, a Representative in Congress 
                       from the State of Illinois
    Thank you Mr. Chairman, I would like to commend you for bringing to 
national attention two very important pieces of legislation: the 
Wireless Communications and Public Safety Enhancement Act and the 
Wireless Privacy Enhancement Act.
    The Wireless Communications and Public Safety Enhancement Act 
focuses on a vital public health issue that deserves national 
attention. Most Americans are not aware that 911 is not a universal 
emergency number, many states have designated other emergency numbers 
within their jurisdiction. Hence, wireless users who roam from city to 
city or state to state are sometimes required to learn each state's 911 
surrogates.
    In the age where technology is evolving and wireless telephones are 
prevalent in our society, it is important that in emergency situations 
wireless customers have access to enhanced 911 or E911. Having access 
to E911 allows wireless phone users to dial 911 and have the call 
routed to an attendant who has information on the caller's telephone 
number and location. Unfortunately, as we sit here today most wireless 
telecommunications services do not have E911 capabilities. On the other 
hand, emergency attendants that do have access to 911, usually lack the 
capability of determining a user's location. Therefore, in an emergency 
situation or a life threatening situation a wireless user who dials 911 
may not receive proper medical attention because an operator cannot 
determine his exact location.
    The Wireless Communications and Public Safety Enhancement Act 
addresses this problem by enacting 911 as a universal emergency number. 
This Act will save lives by reducing the response time for emergency 
assistance.
    The timeliness of the Wireless Privacy Enhancement Act is important 
in the realm of today's technology because it makes illegal the 
interception or disclosure of certain radio communication. We are 
embarking on a technological revolution as we approach the millennium 
and the lines of technology and privacy have become blurred. The 
increasing availability of digital scanners allows the interception of 
cellular signals. Therefore, this Act is needed to address this matter.
                                 ______
                                 
   Prepared Statement of Hon. Thomas C. Sawyer, a Representative in 
                    Congress from the State of Ohio
    Thank you Mr. Chairman for holding this hearing today on the 
Wireless Privacy Enhancement Act and the Wireless Communications and 
Public Safety Enhancement Act. I also want to thank our witnesses for 
coming to testify before us.
    As has been highlighted these bills passed this subcommittee and 
the full Committee last year with overwhelming bipartisan support. 
Unfortunately, however, they were not enacted into law and that is why 
we are reconsidering them today. I plan to keep my remarks short so we 
can hear from our witnesses. However, I want to make a short statement 
regarding the Wireless Communications and Public Safety Enhancement 
Act, otherwise known as the E-911 bill.
    Some studies have shown that many Americans buy cellular phones for 
peace of mind. On any given day, more than 80,000 emergency cellular 
calls are made. However, if cellular users are unable to make or 
complete cellular phone calls in emergency situations because of ``dead 
zones'' then the phone is of no use to them for that specific purpose. 
Similarly, if in an emergency situation an injured victim's location 
cannot be quickly and easily identified then the cell phone is of 
little use. In these instances, many accident victims' injuries were 
made much more serious by the delay.
    The E-911 bill seeks to promote greater public safety by creating a 
national uniform wireless 911 emergency system that will allow for end-
to-end cellular phone transmissions. Cellular companies are given 
liability protections from lawsuits in cases where emergency calls are 
not connected. I hope this protection encourages them to build out 
their networks to reduce the number of dead zones so emergency response 
units have the ability to respond to emergency calls in a timely 
manner. Also, the FCC is required to work with state and local 
governments to ensure that Public Safety Answering Points (PSAPs) 
develop effective statewide E-911 plans. Finally, cellular users will 
be given privacy assurances that their personal information will not be 
distributed without their prior consent.
    Mr. Chairman, I cosponsored this legislation in the 105th Congress. 
I have agreed to cosponsor it again because I believe it helps to 
enhance public safety. I look forward to working with you, Mr. Shimkus 
and our other colleagues to pass this legislation through this 
Committee and the House, and I hope the President will have the 
opportunity to sign it into law.
    Thank you.
                                 ______
                                 
  Prepared Statement of Hon. Gene Green, a Representative in Congress 
                        from the State of Texas
    Thank you Mr. Chairman for holding this hearing on wireless 
communications privacy and public safety. Today we are here to discuss 
two pieces of legislation the Wireless Privacy Enhancement Act and the 
Wireless Communication and Public Safety Act or E-911. I support each 
of these bills.
    E-911 is of great interest to me, as a state legislator I helped to 
create the 911 emergency network in Harris County, and now as a Member 
of Congress working on enhanced 911 seems to be the next logical step.
    While I support the Wireless Communication and Public Safety Act. 
However, I was disappointed to find out that the Wireless Communication 
and Public Safety Fund was pulled from this E-911 legislation. I 
believe this fund would have gone a long way in demonstrating the 
federal support and commitment to E-911. I just hope that we can find 
alternative funding sources to upgrade our PSAPs and for the continued 
research and development of automatic crash notification systems.
    While the leasing provision and the trust fund have been pulled 
from the Wireless Communications and Public Safety Act it still has the 
essentials to start to implement a national end-to-end emergency 
wireless communications system. It still has the essential backbone 
provision to designate 911 as the universal emergency number for both 
wireline and wireless communications. It removes the barrier of the 
lack of liability parity between wireline and wireless communications, 
and it also attempts to address our privacy concerns with respect to 
the use and access to location information. Two weeks ago I drove from 
Houston to Washington DC and learned first hand the need for a uniform 
emergency number.
    These are the building blocks upon which the states with their 
respective E-911 plans to upgrade their Public Safety Answering Points 
and emergency networks can build upon. Back in my home city of Houston, 
we have already taken many steps to implement E-911 services. I am 
proud of what the city and the Greater Harris County 9-1-1 Emergency 
Network has accomplished and hope that other cities and localities 
would use Houston as a good model for E-911 services.
    I just want to reiterate to all of my colleagues the importance of 
this E-911 legislation. Let's remember that injury is the fourth 
leading cause of death for persons between the ages of one and forty-
four. With enhanced 911 services, we will be instantly notified of when 
and where a crash has occurred, and to be able to provide accurate and 
up-to-date information on the severity of an accident. E-911 will save 
lives.
    Again, thank you Mr. Chairman for holding this hearing.

    Mr. Tauzin. If the panel would please assemble, we will 
commence our work today.
    Let me introduce them first en masse and then we will 
introduce them separately. Mr. Thomas Sugrue, Wireless 
Telecommunications Bureau Chief, Federal Communications 
Commission is here today. Captain Joe Hanna of the Richardson 
Texas Police Department is here on behalf of the Association of 
Public Safety Communications Officials; Ms. Maureen Finnerty, 
Associate Director of Parks Operations and Education, 
Department of the Interior, who will tell us what is really 
happening in Rock Creek Park; Mr. Thomas Wheeler, President and 
CEO, Cellular Telecommunications Industry Association, here in 
Washington, who has been a great help to this committee and in 
these hearings; Mr. James Dempsey, Senior Counsel, Center for 
Democracy and Technology, here in Washington, and Michael 
Amarosa, Vice President of Public Affairs for TruePosition, 
Incorporated, New York, New York.
    Gentlemen and ladies, we are, indeed, pleased to have you 
here. Welcome. Thank you, again, for assisting us in this work. 
And we will begin by hearing from Mr. Thomas Sugrue, Wireless 
Telecommunications Bureau Chief for the FCC. Mr. Sugrue.

  STATEMENTS OF THOMAS J. SUGRUE, WIRELESS TELECOMMUNICATIONS 
BUREAU CHIEF, FEDERAL COMMUNICATIONS COMMISSION; CAPTAIN JOSEPH 
L. HANNA, RICHARDSON TEXAS POLICE DEPARTMENT, ON BEHALF OF THE 
     ASSOCIATION OF PUBLIC-SAFETY COMMUNICATIONS OFFICIALS 
   INTERNATIONAL, INCORPORATED; MAUREEN FINNERTY, ASSOCIATE 
  DIRECTOR, PARKS OPERATIONS AND EDUCATION, DEPARTMENT OF THE 
  INTERIOR; THOMAS E. WHEELER, PRESIDENT AND CHIEF EXECUTIVE 
  OFFICER, CELLULAR TELECOMMUNICATIONS INDUSTRY ASSOCIATION; 
 JAMES X. DEMPSEY, SENIOR STAFF COUNSEL, CENTER FOR DEMOCRACY 
 AND TECHNOLOGY; AND MICHAEL AMAROSA, VICE PRESIDENT OF PUBLIC 
              AFFAIRS, TRUEPOSITION, INCORPORATED

    Mr. Sugrue. Thank you, Mr. Chairman, and good morning, and 
good morning to the members of the subcommittee. I am Tom 
Sugrue, the new Chief of the Wireless Bureau at the FCC. I 
assumed this new position 2 weeks ago, and I am delighted to 
accept this invitation at the beginning of my tenure and to 
join this distinguished panel to address the issues that are 
raised by the legislation you are considering today.
    I would like to begin by noting that, although I am new to 
the tasks facing me as Chief of the Wireless Bureau, the issues 
this legislation is addressing are very important to me in my 
longer-term job as the father of two daughters. My wife and I 
decided to join the ranks of wireless subscribers when our 
older daughter celebrated her 16th birthday, got her driver's 
license, and headed for the Beltway. The Sugrue family doubled 
our cellular holdings when our second daughter turned 16 and 
also became a much more mobile member of the household.
    Like many families, we became wireless subscribers in large 
part because of our concerns about our children's safety. As a 
dad worrying about my kids, I understand the importance of 
being able to get through to emergency help on your wireless 
phone. Our family has been fortunate in not having to face such 
emergencies, discounting the frequent occasions when daughter 
No. 2, who has no sense of direction, calls to report that she 
is lost on her way to her destination and is driving around 
aimlessly. But, other then that, I take great comfort that, if 
a serious emergency were to occur, my children would be able to 
reach help by using the cellular phone.
    These concerns about safety underscore the fact that we 
need to have wireless emergency communication systems that 
work. We need to have 911 service available for everybody all 
the time and everywhere in the Nation.
    With these issues in mind, I would like to make four brief 
points about the matters the subcommittee will be considering 
as you review the legislation before you. First, the use of 
wireless services in emergencies has grown dramatically and 
that growth is very likely to continue. According to industry 
estimates, wireless phones are used to make 98,000 emergency 
calls every day. Wireless systems, as well as equipment and 
facilities used by emergency service providers, must be 
designed to accommodate this growth and they must be engineered 
to deliver reliable, effective service.
    Second, the Commission, the public safety community, 
consumer groups, the wireless industry, the Congress, and, in 
particular, members of this subcommittee, have all taken 
important steps toward the goal of ensuring that every wireless 
911 call goes through. Our rules for enhancing the features of 
wireless 911 service have been adopted in large part based on 
the joint commitment of all these players to realizing the goal 
of ubiquitous, highly reliable wireless emergency 
communications. This is an area where I believe we are all 
pretty much on the same page as far as goals. That we really do 
agree on where we want to get to.
    Third, having said that, as always, the devil is in the 
details and serious issues remain on details, on the means of 
getting to where we want to go. For example, to cite some of my 
concerns, the deployment of the first phase of wireless 911 
enhancements has not progressed as rapidly as we would like. We 
also need to develop more effective ways to improve the 
reliability of wireless 911, especially in rural areas. 
Moreover, the Commission must ensure that our phase two 
location rules are applied in a competitively neutral fashion 
while, at the same time, ensuring that those location 
technologies are deployed as soon as possible so consumers 
start getting the benefits of those advanced services. The 
Commission is committed to responding to concerns about the 
implementation of E911 and we want to provide guidance and 
leadership to the industry and the public safety community in 
working to give consumers even better wireless 911 services.
    Finally, and most importantly, the legislation currently 
before you presents an opportunity for the Congress to take 
actions that will promote the development of higher quality, 
ubiquitous, end-to-end wireless communications infrastructure 
to meet safety needs.
    In some of these areas, the Commission's authority to 
address all the issues may be open to question. Accordingly, it 
is appropriate in my view that if there is to be a national 
policy that prevails, the Congress should enact legislation. 
Among those areas are the establishment of 911 as a universal 
emergency telephone number throughout the Nation; addressing 
the concerns raised by wireless carriers that they should 
receive protection from liability under Federal and State laws 
in their provision of wireless services; clarifying both the 
protected treatment of location information under the 
Communications Act and the authority of wireless carriers to 
divulge such information to emergency service providers; and 
deciding on appropriate and effective ways to protect the 
privacy of wireless phones by broadening and strengthening 
prohibitions against certain uses of scanning receivers.
    All of these issues have important impacts on the pace and 
the scope of 911 deployment and I commend the subcommittee for 
taking them up at this time. Again, I would like to thank the 
subcommittee for this opportunity to provide my comments. I 
look forward to working with you and with your excellent staffs 
as we go forward on this project and I will try to answer any 
questions you might have for me. Thank you.
    [The prepared statement of Thomas J. Sugrue follows:]
        Prepared Statement of Thomas J. Sugrue, Chief, Wireless 
      Telecommunications Bureau, Federal Communications Commission
                            i. introduction
    Mr. Chairman and Members of the Subcommittee: Good morning. I am 
Thomas Sugrue, Chief of the Wireless Telecommunications Bureau at the 
Federal Communications Commission. I welcome this opportunity to 
comment on legislation designed to promote public safety by making 
improvements in wireless 911 service, and to report to you on the 
Commission's efforts to improve the quality and delivery of wireless 
911 services throughout the Nation.\1\ I am also pleased to comment on 
the legislation designed to enhance wireless privacy by expanding and 
strengthening the prohibitions against the manufacture and distribution 
of certain scanning receivers.
---------------------------------------------------------------------------
    \1\ The comments and views expressed in this Statement are offered 
in my capacity as Chief of the Commission's Wireless Telecommunications 
Bureau and may not necessarily represent the views of individual FCC 
Commissioners.
---------------------------------------------------------------------------
            ii. importance of wireless enhanced 911 service
    Wireless telephones have evolved in a few years from a business 
tool or personal luxury installed primarily in cars to a familiar 
pocket-sized way to send and receive calls almost anywhere. More than 
67 million cellular, PCS, and other wireless phones are now in use in 
the United States and their number continues to grow rapidly. One of 
the most compelling reasons why Americans purchase wireless phones is 
safety, especially in emergencies. Having a wireless phone at hand 
allows one to call for help, both for oneself and for others, when and 
where help is most needed.
    The number most Americans dial in emergencies is 911. Since the 911 
emergency number was introduced in 1968, it has become the most widely 
recognized and used emergency number, the number almost all Americans 
know to call when they need help fast. Moreover, in the case of 
wireline calls, most 911 systems and Public Safety Answering Points 
(PSAPs) have been upgraded to enhanced 911 (E911), which adds features 
that permit more efficient and speedy response by emergency personnel.
    For example, an emergency 911 call made from a wireline phone is 
typically routed to an attendant at the most appropriate PSAP, along 
with the caller's telephone number, which can be called back. In 
addition, E911 includes Automatic Location Identification (ALI) 
capability, which informs emergency services personnel of the location 
of the call. Over 89 percent of wireline phones in the United States 
are served by 911, and almost 85 percent of wireline 911 services 
include some form of E911.
    Unfortunately, E911 has not been available for wireless calls. Even 
in locations where wireline E911 capability is in place, the attendant 
at a PSAP generally does not automatically receive information on the 
telephone number of a wireless phone or, most importantly, its 
location. This can be critical in emergencies, because the mobile phone 
user may not know his or her location. Even if the location is known, 
the caller may not be able to describe it adequately or accurately to 
the PSAP attendant. Providing information on the location of an 
emergency rapidly and accurately allows emergency organizations to 
respond more quickly and effectively.
       iii. what the commission has done to promote wireless e911
    The Commission, of course, has set aside 911 as a national 
emergency number for wireline phones. In the E911 rulemaking docket (CC 
Docket No. 94-102), the Commission has acted, in response to requests 
by public safety organizations, consumer groups, and the wireless 
industry, to require wireless carriers to deliver 911 calls and to meet 
a schedule for introducing the features of enhanced 911. Effective 
April 1, 1998, wireless carriers were required to implement Phase I of 
this schedule, provided certain conditions were met. Under Phase I 
rules, carriers must provide automatic number identification (ANI) and 
cell site information for 911 calls to PSAP. Phase II, which requires 
the deployment of the capability to determine the location of callers 
(with accuracy to within about 400 feet), is scheduled for October 1, 
2001. These Phase I and Phase II requirements apply only if the carrier 
receives a request for such services from a PSAP capable of receiving 
and using the enhanced services, and a mechanism for the recovery of 
costs relating to the provision of such services is in place.
    Since those rules were adopted, we have seen substantial, rapid 
progress in E911 technology. Phase I technologies are commercially 
available. Many manufacturers are competing to provide innovative ways 
to satisfy the Phase II location requirements. Phase II trials have 
been successfully conducted in New Jersey, in Denver, Colorado, and 
elsewhere. Increasingly, automatic location capability has been 
recognized as a major new business opportunity, both here and in other 
countries around the world. There is a growing consensus that it is 
technologically possible and achievable to meet the Commission's Phase 
II ALI requirements by the 2001 deadline.
    But there are still many issues and obstacles to be overcome. 
Actual E911 deployment has been slow for Phase I. According to a recent 
survey taken by the National Emergency Number Association (NENA), only 
7 percent of PSAPs have upgraded to Phase I. According to the NENA 
survey, public safety entities point to several reasons for the slow 
implementation of Phase I. The need for PSAP equipment upgrades and the 
lack of funding to pay for those upgrades are the principal reasons 
given by PSAPs for the delayed implementation of Phase I services. We 
understand that, in some cases, there are negotiations taking place 
between the carriers and PSAPs as to the appropriate technology to 
deploy. In any case, wireless E911 is clearly not operating in most of 
the Nation, almost a year after the Commission's rules took effect.
    What can be done next, to make universal E911 happen on schedule?
    We intend to remain active in taking the steps necessary to ensure 
that the goals of the Commission's E911 rulemaking are realized. For 
example, we will continue to work with the wireless industry and 
consumer groups to develop more effective ways to improve the 
reliability of wireless 911, especially in rural areas. We also will be 
taking steps to help ensure that the Commission's Phase II rules are 
applied in a competitively and technologically neutral way that 
encourages use of the best automatic location methods, whether they are 
located in the carriers' networks or in handsets. If issues arise 
regarding implementation of Phase I and Phase II of the Commission's 
E911 rules, we will place a priority on our being responsive to these 
concerns because we believe that continuing guidance and leadership by 
the Commission will play an important role in providing consumers with 
even better wireless 911 services.
                 iv. important role of e911 legislation
    These and other efforts by the Commission are to support the 
overarching goal of improving public safety by helping to make 911 work 
effectively for all wireless callers and to make 911 the universal 
emergency number across the United States.
    But moving forward to making universal, enhanced 911 a reality for 
people using wireless phones everywhere in the Nation requires efforts 
by many businesses, agencies, and individuals, including State and 
local governments, local wireline carriers, and equipment 
manufacturers, not just wireless carriers. And achieving the necessary 
coordination among all of these necessary partners in the E911 program 
raises a range of questions about whether the Commission has the 
authority or the tools to address all of these issues.
    It is in the areas where the Congress believes a national policy 
should prevail, but where the Commission's authority may be limited or 
uncertain, that we think legislation may be helpful in establishing 
nationwide policies and programs. We believe it is appropriate for the 
Congress to make these judgments and take steps at the national level 
to move toward the goal of a more ubiquitous emergency wireless system.
    The pending legislation has played a valuable role in focussing 
attention on several key issues that may require action in order to 
advance policy goals we all share regarding the effective provision of 
wireless 911 services.
Universal Emergency Telephone Number.
    The Commission has set aside 911 as a national emergency number and 
required wireless carriers to forward all 911 calls to PSAPs. But 
wireless industry groups have expressed concern that some State and 
local jurisdictions use other three-digit or seven-digit numbers to 
route wireless emergency calls to central answering points. Moreover, 
other local authorities have not established any centralized means of 
handling emergency calls, relying instead on different numbers to route 
calls to the police, fire departments, and emergency medical personnel.
    These are matters that have historically been left to State and 
local authorities. The Commission, to date, has not asserted the right 
to impose such obligations on the thousands of such authorities across 
the Nation. Instead, we have chosen to limit our 911 rules to wireless 
carriers.
    The proposed legislation recognizes the importance of examining the 
best means to ensure that wireless callers are not thwarted in their 
efforts to receive assistance in emergency situations. I believe the 
legislation takes a positive step in giving the Commission 
responsibility for designating 911 as the universal emergency number. 
We would welcome the opportunity to work with the staff of the 
Subcommittee in order to gain a better sense of the role the Commission 
would be expected to play, following the designation of 911 as the 
universal emergency number, in achieving the congressional goal of 
implementing the use of 911 by State and local jurisdictions across the 
Nation.
Parity of Protection for Provision or Use of Wireless Service.
    The Commission has also been asked by the wireless industry to 
preempt State tort laws governing wireless carrier liability for 
delivery of 911 and other calls. This is, again, an area that 
historically has been left to State legislators, public utility 
commissions, and courts. Emergency calls are almost always local in 
nature, not interstate communication.
    On the other hand, wireless carriers have frequently identified the 
lack of liability protection as an impediment to their implementation 
of E911 service. While we believe there is a reasonable case to be made 
in favor of harmonizing the rights and responsibilities of wireless and 
wireline carriers in this area, the Commission has been properly 
cautious about exerting its policy judgments over those of State and 
local authorities.
    Here, too, legislation to set national policies could help resolve 
liability issues in ways that meet the legitimate needs of wireless 
carriers, local and State governments, and--more importantly--wireless 
users.
Authority To Provide Location Information.
    The proposed legislation clarifies that location information 
concerning the user of a commercial mobile service is to be treated as 
Customer Proprietary Network Information (CPNI) requirements of the 
Communications Act. The proposed legislation also clarifies that 
carriers will not be in violation of those requirements if they provide 
location information in an emergency situation to public safety and 
similar organizations and certain family members.
    I recognize that wireless carriers have raised concerns regarding 
possible conflicts between the CPNI and ALI requirements, and I thus 
believe it will be helpful to clarify that the statute protects 
location information as CPNI, but that this information may be released 
in emergency situations to certain designated persons.
    The Subcommittee is to be complimented for its efforts to address 
these critical issues to help ensure a universal 911 emergency service 
infrastructure. We stand ready to provide further comments and 
assistance as the Congress moves forward in considering these issues.
                  v. wireless privacy enhancement act
    On February 5, 1997, William Kennard, who was then the Commission's 
General Counsel, testified before this Subcommittee at an oversight 
hearing on cellular privacy. At that time he reported that, consistent 
with the Telephone Disclosure and Dispute Resolution Act (TDDRA), the 
Commission has established rules denying equipment authorization for 
any scanning receiver that is capable of:

<bullet> receiving transmissions in the frequencies allocated to the 
        domestic cellular radio service;
<bullet> readily being altered by the user to receive transmissions in 
        such frequencies; or
<bullet> being equipped with decoders that convert digital cellular 
        transmissions to analog voice audio.
Further, the Commission's rules prohibit the manufacture and import of 
such scanning receivers as of April 26, 1994.
    I am pleased to report that, subsequent to the oversight hearing, 
the Commission took a number of actions to increase awareness of these 
regulations and step up our enforcement efforts. For example, the 
Commission issued a notice advising the public that modification of 
scanners to receive cellular frequencies is illegal and took action 
against organizations that were offering services to modify scanners, 
ensuring that such activity ceased. The Commission has also worked with 
manufacturers to better assure that scanners are not capable of being 
readily altered to receive cellular signals.
    In May 1998 the Commission adopted a Notice of Proposed Rulemaking 
(NPRM) in ET Docket 98-76 to propose amendments to its rules to further 
ensure that scanning receivers do not receive cellular signals. The 
NPRM proposes new requirements to ensure that scanning receivers do not 
pick up cellular signals when tuned to frequencies outside the cellular 
frequency bands. The NPRM also proposes to require scanning receivers 
to be ``hardened'' to prevent modifications to receive cellular 
frequencies, such as requiring scanning receivers to be designed so 
that the tuning and control circuitry is inaccessible and attempts to 
modify the device are likely to render it inoperable. The NPRM also 
proposes other changes to close perceived loopholes in current 
regulations, such as prohibiting the marketing of scanning receiver 
kits.
    A wide range of comments on the NPRM were submitted by 
manufacturers, cellular service providers, and scanner enthusiasts. It 
is my understanding that the Commission plans to adopt a Report and 
Order implementing these proposed rules with appropriate revisions in 
the near future.
    While the Commission is strengthening its rules for scanning 
receivers, there are limits to what can be done under the current law. 
For example, Section 302(d) of the Communications Act specifically 
authorizes the Commission to prohibit scanning receivers that tune the 
cellular radio service. The statute does not expressly authorize the 
Commission to prohibit scanning receivers that cover frequency bands 
used by other commercial mobile radio services, such as Personal 
Communications Service. Nor does it authorize the Commission to 
prohibit scanners that are capable of decoding digital signals used by 
paging services and specialized mobile radio services. I believe that 
new legislation may be advisable if the Congress finds that the 
Commission needs to take action to prohibit scanners that tune or 
decode services other than the cellular radio service.
    We note that the Wireless Privacy Enhancement Act would make 
certain amendments to Section 705 of the Communications Act. In light 
of the close relationship of the wiretapping and related provisions of 
the criminal code, and at the request of the Department of Justice, it 
is the Commission's longstanding general practice to coordinate 
complaints regarding potential violations of Section 705 with the 
Department in order to make sure that our administrative actions do not 
interfere with any criminal investigations initiated by the Department. 
This approach is in accordance with a Memorandum of Understanding 
between the Commission and the Department (effective since 1953 and 
revised and re-executed in 1989).
    The Wireless Privacy Enhancement Act would amend Section 705 to 
make it a violation to intercept or disclose (rather than the current 
intercept and disclose) certain radio communications. Further, the 
Commission would be required to investigate alleged violations and to 
determine whether to initiate proceedings to impose forfeitures.
    I want to thank the Subcommittee for the opportunity to provide 
comments when this legislation was being drafted. I assure you that, if 
the Wireless Privacy Enhancement Act should become law, the Commission 
will promptly amend its rules as required and will enforce them 
vigorously.
                             vi. conclusion
    I would like to thank the Subcommittee for this opportunity to 
provide my comments regarding the pending legislation. And I will look 
forward to assisting you in your efforts to address the important 
issues of public policy involved in the pending legislation.

    Mr. Tauzin. Thank you very much, Mr. Sugrue and, indeed, we 
all understand your dilemma on those 16-year-olds with the 
highways. We have all gone through that, and I appreciate your 
personal and professional interest in what we do here today.
    Captain Joe Hanna from Texas. I think I met you on a Texas 
highway, Joe. I am not sure.
    Somewhere on the Bayou maybe. But welcome, Captain Hanna, 
and your testimony is now welcome and we appreciate your being 
here, sir.

              STATEMENT OF CAPTAIN JOSEPH L. HANNA

    Mr. Hanna. Mr. Chairman, members of the committee, today I 
have the honor of addressing you on one of the most significant 
issues facing the delivery of public safety services throughout 
the United States. My comments this morning are going to be 
based really from about three different perspectives. First of 
all, I am here representing the Association of Public-Safety 
Communications Officials Inc.--we will call it APCO--which 
represents about 13,000 members around the United States, 
people who manage and operate public safety communication-
related facilities, including the delivery of 911 service.
    In another capacity, I have the pleasure today of joining 
Tom Wheeler from CTIA, representing the ComCARE Alliance. For 
those of you who followed this bill this last year, you may 
recall the ComCARE Alliance is an affiliation of 30 plus 
members who represent a broad spectrum of emergency services, 
including public safety, the wireless carriers, local exchange 
carriers, trucking industry, motor assistance programs, and 
other similar services. The Alliance has certainly worked 
diligently with the committee staff to work to craft the bill 
that you are looking at today.
    Third, I want to bring to you a perspective of my daytime 
job. And that is I serve the commander of a communications 
center for the city of Richardson, Texas. And, in that 
capacity, I think I am probably the one person here on the 
panel today who has to deal with these issues on a frontline 
basis.
    Over the last several decades this Nation has spent 
considerable time dealing with the issue of criminal justice 
and public safety. We have helped a great deal with putting 
cops on streets. We have enhanced penalties for different 
offenses. We have looked at a number of technological 
improvements that help us in detection and apprehension of 
criminals. But one of the issues that we have seemed to 
misplaced is the first step of people dealing with those public 
safety agencies and that is how they contact 911, in this case.
    We have all heard numbers today. The numbers are 
overwhelming and it is interesting how they grow by millions as 
we speak here. But we know that, each year, that 911 centers 
handle more than 100 million 911 calls. These are handled by 
5,500 autonomous public safety answer points or PSAPs. We are 
currently dealing with the wireless subscriber base now, 
someplace in the range of 60 to 65 million users. These people 
place someplace in the neighborhood of 30 million wireless 
calls into 911 centers. These calls now account for anywhere 
from 20 to 40 percent of all the calls that were received in 
the PSAPs. Again, in my city, we did our last statistical line 
and 29.9 percent of all calls received to 911 were coming from 
wireless subscribers.
    In response to these issues, the FCC released docket 94-102 
back in 1994. The underlying goal of this docket was to provide 
emergency services to callers with wireless instruments 
equivalent to that for traditional wireline customers. Many if 
not most wireless customers were surprised and have been 
surprised to learn that today public safety answer points have 
no information on who that caller is and no idea where they are 
calling from. And that is a surprise, believe it or not, to 
most of these people. And we have already discussed the fact 
this morning that people are buying these for safety.
    In 1996, four groups, including APCO, NENA, NASNA, the 
State administrators and CTIA reached a consensus agreement on 
how we could come to the table to bring location and traveler 
information to our customers. Nothing in that agreement, 
however, addressed the recognition of 911 as the universal 
number to be dialed for emergency calls. It has already been 
mentioned again this morning that you have a variety. If you 
are in Florida, you call *FHP. In some places, it is *55.
    While we have made some progress in meeting the goals of 
docket 94-102, there is much left to do. It is critical that 
this committee, in considering the current legislation, review 
its mandate to the FCC to ensure the timely implementation of 
the consensus agreement reached by public safety in the 
wireless industry. I am pleased to see Tom Sugrue here today. 
We look forward to his leadership in expediting this process, 
which has dragged out far too long.
    As you consider this bill, you should recognize that this 
legislation is not just a communications bill. It is a 
lifesaving issue. It is a transportation issue. It is a safety 
issue. Members of this committee have been bombarded with these 
issues over the past year. Unfortunately the general public has 
not. Any legislative action taken on this critical issue will 
help bring this message to the public officials at the State, 
county, and local level throughout this Nation.
    One last comment I would make: As has been pointed out this 
morning, one of the concerns that we now have under this bill 
is that we are not addressing the issue of funding and funding 
is a critical issue. It is a critical issue in the ability of 
wireless carriers to facilitate a better quality of signal. It 
is a critical issue to the public safety answer point. You have 
to be able to increase volume of calls. It is a critical issue 
to the public safety community which has to develop the 
infrastructure internally to modify computer dispatch systems 
and mapping systems and other technology to bring this to the 
table.
    On behalf of APCO and ComCARE, I urge you to act on this 
bill in the earliest possible time to provide the gift of life 
and safety to the citizens of this Nation. Thank you, Mr. 
Chairman.
    [The prepared statement of Captain Joseph L. Hanna 
follows:]
    Prepared Statement of Captain Joseph L. Hanna, President Elect, 
 Association of Public-Safety Communications Officials-International, 
                                  Inc.
    Chairman Tauzin, members of the Committee: Today I have the honor 
of speaking with you on one of the most significant issues confronting 
the delivery of public safety services throughout the United States. 
This presentation is offered from the perspective my role as President 
Elect of the Association of Public-Safety Communications Officials-
International, Inc. (APCO). APCO is the nation's oldest and largest 
public safety communications organization with over 13,000 members 
involved in the management and operation of law enforcement, fire, 
emergency medical, and other vital public safety communications 
systems. APCO is a FCC certified coordinator for public safety radio 
frequencies. Additionally APCO was one of four (4) signers of the 
consensus agreement brokered between public safety and the wireless 
industry leading to the implementation of Phase I and Phase II of the 
FCC's wireless 9-1-1 rules (FCC Docket 94-102). In addition to the 
perspective I bring to you as an officer of APCO, I also bring the 
perspective of my daily role as the Commander of a public safety answer 
point (PSAP) for the City of Richardson, Texas. Located on the northern 
border of Dallas County, the City of Richardson has a population of 
85,000, and is directly impacted by the issues addressed by the 
Wireless Communications and Public Safety Enhancement Act of 1999.
    While considerable attention has been given to public safety over 
the past several decades, the overwhelming focus has been on putting 
cops on streets, enhancing penalties for a range of offenses, and 
dealing with technological improvements related to the detection and 
solution of crimes. Without question, each of these efforts is 
essential to the preservation of order in our society. Somewhat lost in 
the equation, however, has been attention on the first step taken by 
most members of our society when a problem has been encountered: the 
means of making the initial contact with the appropriate public safety 
responder.
    It is estimated that the 271 million citizens of the United States 
are currently served by approximately 5,500 autonomous public safety 
answer points (PSAPs). These 5,500 PSAPs receive an estimated 110 
million 9-1-1 calls each year. Prior to the implementation of 9-1-1, 
these calls were routed to 5,500 different telephone numbers, as each 
jurisdiction had its own unique telephone number. With the widespread 
implementation of 9-1-1 services, however, the majority of our citizens 
now need to know only one number. However, this 9-1-1 system as we know 
it today was built around an architecture of a wireline-based 
infrastructure.
    In this same 10 year period, wireless telephones have expanded from 
a number in the thousands to an estimated 65 million users today. These 
wireless users placed an estimated 30 million 9-1-1 calls in 1997, or 
approximately 82,000 9-1-1 calls per day. These numbers account for 
anywhere from 20-40% of the total 9-1-1 calls received by PSAPS. In the 
City of Richardson, for example, the actual percentage of 9-1-1 calls 
originating from wireless telephones is almost 30%.
    Industry experts predict that the number of wireless communications 
users may soon surpass wireline users. AT&T recently announced a plan 
that, if followed by other carriers, will potentially push many 
subscribers away from traditional wireline service. Similarly, a major 
wireless carrier is testing a ``fixed wireless'' solution in the Dallas 
metroplex.
    In examining the expanding role of wireless service, industry 
research has consistently reported that safety is the overwhelming 
reason for the purchase of wireless telephones. In almost every study 
reported by the wireless industry, 50 to 60 percent of all subscribers 
have cited safety as the primary motivator for their decision to 
purchase a wireless telephone. As noted above, these figures are 
reflected in the percentage of emergency calls placed to public safety 
answer points throughout the nation.
    Unfortunately, the wireless industry, in its zeal for expanded 
market shares, and public safety agencies, in their desire to see 
additional ``eyes and ears'' in the community, have done a poor job in 
managing expectations within the 65 million wireless subscriber pool. 
While the public is accustomed to dialing 9-1-1 for emergencies 
throughout the United States, there are significant areas in which 9-1-
1 has been the wrong number to dial. Those driving through Florida, for 
example, may have noted signs that have advised motorists to dial *FHP. 
In other jurisdictions, other numbers such as *55 have been designated 
as the number to call for emergencies. While these unique numbers may 
have some meaning for local residents, they have little meaning for 
motorists or other visitors entering the jurisdiction. It has been 
estimated that Orlando, Florida, for example, attracts approximate 40 
million visitors per year. Myrtle Beach, South Carolina draws an 
estimated 13 million visitors per day during peak season. Las Vegas 
similarly brings 32 million non-residents to their city each year. What 
number is appropriate to call from a wireless instrument in each of 
these cities? Differing emergency numbers, coupled with the stress 
associated with a medical emergency, a life threatening injury, an 
automobile accident, or a lost child creates a prescription for a 
deadly outcome. The public has an expectation that in many cases is not 
met. There is a school of thought that the expectation of having 
something that one does not have may well be worse than not having it 
at all.
    In response to wireless 9-1-1 concerns, the Federal Communications 
Commission released Docket 94-102 in 1994. The underlying goal of this 
docket was the provision of emergency services for callers from 
wireless instruments equivalent to that of the traditional wireline 
customer. Many, if not most, wireless customers have been surprised 
that public safety answer points have no information related to the 
identity of the caller or their location. In 1996, public safety and 
the wireless industry were able to craft a consensus agreement that 
would address these issues under a set timetable. Nothing in the 
resulting FCC rules however, addressed the recognition of 9-1-1 as the 
universal number to be used for emergency calls. While progress has 
been made in meeting the goals of Docket 94-102, much is left to do.
    We must recognize that there are a multitude of components which 
must mesh together to ensure the same level of 9-1-1 service that has 
been developed on the wireline side. These components range from the 
initial wireless subscriber, to the instrument used to dial the call, 
to the wireless infrastructure, to the local exchange carrier, and to 
the public safety answer point's 9-1-1 equipment. The ability to 
uniformly dial 9-1-1 serves as one of the single greatest barriers to 
the implementation of this network. The Wireless Communications and 
Public Safety Enhancement Act of 1999 provide the essential first step 
in this process by establishing 9-1-1 as THE one number to know.
    The Wireless Communications and Public Safety Enhancement Act of 
1999 also recognizes future technologies under development that, 
coupled with current 9-1-1 technology, have the potential to save a 
significant number of lives each year. Research developed in 
conjunction with intelligent highway technology is leading to systems 
that would allow for automatic crash notification to the nearest public 
safety answer point. The ultimate integration of auto crash 
notification and other intelligent highway systems with 9-1-1 has 
dramatic potential for saving lives.
    In addressing the myriad issues associated with the delivery of 9-
1-1 services, the impact of wireless telephone users on public safety 
answer points remains one of the most visible omissions. While public 
safety answer points welcome the broadening of opportunities that 
wireless technology has brought to the table to enhance earlier 
notification, it has become a two edged-sword. Where a call on an 
urban/suburban freeway once resulted in two or three calls (pre-
wireless), there are now 25-30 calls. Additionally, each wireless call 
may well take two to three the times as long to process by the public 
safety telecommunicator, as there is no caller or location information. 
Each call must be screened to ensure that each of the sudden volume of 
calls is related to the same incident. While considerable attention has 
been given to the issue of funding Phase I and Phase II systems on the 
hardware side of the equation, little consideration has been given to 
the staffing needs based on increased call volume and call processing 
time.
    Additionally, the 9-1-1 workstations used throughout the 
overwhelming majority of public safety answering points is geared to 
handle a limited amount of text information traditionally associated 
with wireline calls. As public safety answering points migrate to 
workstations that can visibly display computer maps to display the 
location of wireless callers, this migration will require a massive 
upgrade/replacement of 9-1-1 equipment throughout the United States. 
Additionally, while the focus on location determination technology for 
Phase II has been on the wireless industry, there is an equally massive 
effort required for the public safety answer points. Without computer-
based maps created and maintained with the greatest possible accuracy, 
information provided by wireless carriers will be useless. Again, there 
is a significant cost of these systems within the public safety answer 
points that has been overlooked by the public and the wireless 
industry.
    To that end, it is critical that public safety, the wireless 
industry, and government at the local, state, and national level 
reevaluate the issue of funding for 9-1-1 services as an integrated, 
comprehensive, complex system.
    On behalf of APCO, I want to again thank Chairman Tauzin and the 
Subcommittee for this opportunity to appear before you.

    Mr. Tauzin. Thank you very much, Joe.
    And now we are pleased to welcome the Assistant Director of 
Park Operations and Education, Ms. Maureen Finnerty, for her 
statement to this committee.

                 STATEMENT OF MAUREEN FINNERTY

    Ms. Finnerty. Thank you, Mr. Chairman. It is my privilege 
to appear before the committee today to represent the 
Department of the Interior and to present the views of the 
National Park Service on its compliance with the 
Telecommunications Act of 1996.
    Since the Executive Order was signed in 1995 and the 
passage of the act in 1996, the National Park Service has been 
actively engaged in preparing policy guidance and guidelines 
for our field areas to comply with both the executive order and 
the public law. In 1997, in consultation with the 
telecommunications industry, a group of folks met and prepared 
a policy statement that went out and was subject to public 
review. Ultimately comments were received and the policy was 
finalized late in 1997.
    In early 1998, again in consultation with the 
telecommunications industry, National Park Service individuals 
sat down and worked out a whole set of guidelines that further 
articulate and specified the procedures that were to be 
followed by National Park managers to comply with both the 
executive order and the public law. Those guidelines have 
recently been finalized, so we now have in place final and 
approved policy and guidelines, both of them done in 
consultation with the industry, both of them subjected to 
public review and comment. So we do have procedures in place.
    We also, just last month, surveyed the parks within the 
National Park system to find out how many of them had dealt 
with this issue and we found out that there were 56 parks 
throughout the system that had had some activity as it pertains 
to the siting of telecommunications facilities. Of those 56 
parks, 31 do have new or existing facilities that are located 
within the boundaries of the park. There are 16 applications 
pending and we found that only 2 applications had been denied 
as part of that review process.
    Obviously, as has already come up, there has been a lot of 
interest in and discussion with the Rock Creek Park issue and 
the two pending applications from Bell Atlantic. There has been 
a great deal of frustration over the process and the timeliness 
or lack of timeliness of the process over the last year or so. 
It is my understanding that, late yesterday, the director of 
the National Park Service, in a meeting with the communications 
representatives from Bell Atlantic and the members of the 
national capital region which have oversight of Rock Creek Park 
that an agreement has been reached finally to complete the 
review process within 90 days at a significantly reduced scope 
and cost of the project.
    Mr. Tauzin. I don't normally do this, but I want you to 
repeat that for us. An agreement was reached last night to do 
what?
    Ms. Finnerty. We have an individual here who was at that 
meeting and I was not. But it is my understanding that, in 
meetings late yesterday with the director of the National Park 
Service and representatives of Bell Atlantic, an agreement was 
reached to process the application within 90 days at a 
significantly reduced cost and scope of the project.
    Mr. Tauzin. So, to sum it up----
    Ms. Finnerty. And we have someone here that can speak to--
--
    Mr. Tauzin. The application is not approved yet.
    Ms. Finnerty. No, it is not.
    Mr. Tauzin. They have simply agreed to a timetable on 
processing that?
    Ms. Finnerty. I believe that is the case. The application 
is approved. Okay. It is the environmental assessment process, 
I guess, that is the 90 days.
    Mr. Tauzin. To be able to be finalized. It is not finished 
yet. Okay.
    Ms. Finnerty. Application approved, but no NEPA compliance. 
That is the 90 days. Okay?
    In conclusion, I'd like to say we have been in 
conversations with members of the committee and staffs and we 
would like to continue the dialog as we continue to improve our 
procedures and guidelines and certainly look forward to working 
with you and members of the committee to modify those as 
needed. Thank you.
    [The prepared statement of Maureen Finnerty follows:]
   Prepared Statement of Maureen Finnerty, Associate Director, Park 
  Operations and Education, National Park Service, Department of the 
                                Interior
    Mr. Chairman, thank you for the opportunity to present the 
Department's views on the siting of telecommunication antennas in 
National Parks in compliance with the Telecommunications Act of 1996.
    In 1994 and early 1995, the National Park Service experienced a 
growing number of contacts with multiple companies across the nation, 
inquiring about the possibility of siting wireless antenna facilities 
in National Parks. By that time there already were a few sites 
constructed and operating in some parks. At the same time, we were 
contacted by the Cellular Telecommunications Industry Association 
(CTIA), requesting knowledge of and input into our then-developing 
policy and guidance for this subject.
    On August 10, 1995, a memorandum from the President directed the 
heads of all Departments and agencies to facilitate access to federal 
property for the purpose of siting mobile service antennas. While the 
memorandum directed agencies to ``facilitate appropriate access'' to 
their properties for the siting of these antennas, it also listed 
several qualifying provisions. Such siting should be in accordance 
with: 1. Federal, State, and local laws and regulations; 2. 
Environmental and aesthetic concerns; 3. Preservation of historic 
buildings and monuments; 4. Protection of natural and cultural 
resources; and 5. Protection of National Park and wilderness values.
    We strongly believe that any legislation on this issue must 
recognize these standards for placement of mobile service antennae on 
federal lands. For example, I think we can agree that no one would want 
to see a cellular phone tower on the rim of the Grand Canyon or in 
sight of Old Faithful.
    The National Park Service, in conjunction with the CTIA and other 
industry representatives, had been drafting policy and procedures 
specific to telecommunications and immediately included these precepts 
into their work in progress.
    On February 8, 1996, the President signed the Telecommunications 
Act of 1996 (47 U.S.C. 332). Section 704(c) of the Act requires the 
President to develop procedures by which federal departments and 
agencies may make available federal properties, rights-of-way, and 
easements for wireless telecommunication services. On March 29, 1996, 
the GSA issued a notice in the Federal Register (61 FR 14100) of 
general procedures for implementing the provisions of Section 704(c) of 
the Act. The GSA issued an enhancement of these procedures in the 
summer of 1997 that clarified and emphasized the same points as they 
had previously stated. Congress provided additional guidance in the 
Conference Report it issued with the FY 1997 Interior Department 
appropriations act (P.L. 104-208). The report states the Service 
``should promulgate rules which ensure that the public has the 
opportunity to participate fully and comment on the issuing of permits, 
rights-of-way or easements for any telecommunications facility placed 
in any unit of the National Park System.''
    The National Park Service formed a task force whose members were 
drawn from the telecommunications industry, the CTIA, and personnel 
from every region of the Service. The purpose of this task force was to 
draft policy and procedures regarding processing applications for 
permitting telecommunications. This was a difficult task since the Act 
directed federal agencies to implement siting these facilities and to 
avoid the derogation of park resources, values or purposes for which 
the parks had been established.
    A draft policy statement was written and published in the Federal 
Register for comment in the fall of 1997. In addition, the Service held 
meetings with industry and the public to receive their input. On 
December 11, 1997, the Service published its final policy statement on 
Wireless Telecommunications as Director's Order #53A. This order points 
out that Congress and the President have established a compelling 
federal interest in promoting the efficient implementation of the new 
telecommunications technology. The Park Service will follow the 
requirements and intent of the Act, the President's memorandum, and the 
GSA procedures while also recognizing its responsibility for complying 
with provisions of the National Park Service Organic Act and other 
statutes applicable to the operation of units of the System.
    Once the policy statement was approved and distributed, the Service 
undertook development of procedural guidance to assist park managers in 
implementation of the policy. Draft guidelines were published in the 
Federal Register in February 1998, for public comment. The 60-day 
comment period ended on April 24, 1998. The appropriate comments that 
we received during this period were incorporated into the body of the 
final procedures, which were subsequently approved and distributed 
throughout the national park system.
    We surveyed the parks in the summer of 1997 concerning requests to 
site telecommunication antennas in the parks. Of the 21 parks 
indicating they had had some activity in this category, only 5 had 
actually received a combined total of 12 written applications, with the 
other 16 parks receiving approximately 50 phone or other verbal 
inquiries.
    We surveyed the parks again in January 1999. Of the 56 parks 
indicating they had activity in this category, 16 indicate they are in 
the process of reviewing a permit application. Three of these permit 
applications have been denied.
    The National Park Service is in the process of reviewing two 
applications submitted by Bell Atlantic Mobile for permits to site two 
wireless telecommunications facilities in Rock Creek Park. The 
processing of these applications has attracted a fair amount of 
attention, and we would like to address some of the issues that have 
been raised about this process.
    We are sympathetic to the frustration experienced by Bell Atlantic 
Mobile in going through the permitting process. This frustration 
essentially relates to the length of time it has taken the National 
Park Service to process Bell Atlantic Mobile's permit applications. We 
are presently scrutinizing this process and are committed to taking 
care of this problem in an expeditious manner. For example, we have 
determined that we can prepare the Environmental Assessments required 
for these applications with National Park Service personnel, rather 
than through private contractors. This has resulted in a change of our 
cost estimate from approximately $300,000, to roughly $40,000, for the 
preparation of these Environmental Assessments, though this estimate is 
subject to further refinement.
    We must note, however, that in processing an application for a 
permit to operate a wireless telecommunication facility in Rock Creek 
Park the National Park Service has an obligation to ensure that such a 
facility would comply with all applicable federal laws. We would 
strongly oppose any weakening of environmental review requirements. 
These laws were enacted to protect and preserve federal lands and 
should not be circumvented.
    During the 105th Congress, legislation was introduced which, if 
enacted, would have made it difficult for land management agencies to 
fulfill their mission of protecting and preserving vital resource 
values. The bill, H.R. 3844, would have required federal land 
management agencies to make final determinations on applications for 
mobile service antennae within 60 days of receipt of an application. By 
letters dated July 22, 1998, and October 1, 1998, copies of which are 
attached to this testimony, the Department expressed the following 
concerns about such legislation:

1. The bill's failure to include in the policy statement significant 
        protective language found in the Telecommunications Act whereby 
        requests for use of federal property must not be in direct 
        unavoidable conflict with the agency's mission.
2. The bill's failure to require specific information of an applicant 
        seeking to use federal land as a telecommunications 
        transmission site as required by 36 CFR Part 14.
3. The bill's failure to protect the interests of the United States in 
        circumstances when an agency denies an application by shifting 
        the burden of proof from an aggrieved party to the United 
        States, and
4. The bill's failure to observe the protections afforded by compliance 
        with laws such as the Federal Land Policy and Management Act, 
        the National Historic Preservation Act, the Wilderness Act, the 
        National Wildlife Refuge System Improvement Act, and the 
        Endangered Species Act, by restricting an applicant's 
        compliance to the Federal Communications Commission's 
        regulations pertaining to the National Environmental Policy 
        Act.
    The Department cannot forsake its stewardship responsibilities in 
the interest of expedited decision making which fails to take into 
account these important considerations.
    In conclusion, I would like to say that the National Park Service 
has shown its willingness to work with both the telecommunication 
industry and the public on the question of siting telecommunication 
antennas in units of the park system. Our policy statement on this 
subject has been finalized and distributed. The procedural guidance 
implementing that policy was published in the Spring of 1998. We feel 
that we are fully complying with both the provisions and the intent of 
the Telecommunications Act of 1996.
    We understand there is a possibility that a bill relating to the 
siting of wireless telecommunication facilities in National Parks may 
be introduced in this Congress. We would be happy to provide the 
committee with our views on such a bill after it has been introduced.
    Mr. Chairman, this concludes my prepared statement. I would be 
pleased to answer any of your questions.

    Mr. Tauzin. Thank you very much, Ms. Finnerty. We will, of 
course, want to know a lot more about why the process took so 
long in Rock Creek, but we will get to that in Q and A.
    Mr. Wheeler, again, welcome, Tom, and this committee deeply 
appreciates your work in the past on these bills and welcomes 
your testimony today.

                 STATEMENT OF THOMAS E. WHEELER

    Mr. Wheeler. Thank you very much, Mr. Chairman, and members 
of the subcommittee.
    Wireless phones are the greatest safety tool since the 
development of 911. You have heard the numbers previously this 
morning: 98,000 times a day somebody uses their phone to call 
to save a life, to stop a crime, to render assistance. Let me 
put that in perspective. Since we have been here this morning, 
4,100 calls have been made across the country using a wireless 
phone to save a life, to stop a crime, to help someone in an 
emergency.
    The great gift the wireless phone is to the safety of 
Americans is time. You know, the trauma physicians talk about 
time being tissue. The closer you can get medical treatment to 
the injury, the better the chance of survival. Take a look at 
this chart that was just put up there to kind of put this in 
perspective.
    In an urban area, the average period of notification about 
a car crash is 5.2 minutes. Now this is how long it takes 
before 911 gets a call. Why don't you put the chart back up 
again for a second, if you would please. If that can be reduced 
by 3 minutes--this is just the first call--if you can cut that 
time by 3 minutes, you can increase survivability by 16 
percent.
    Now let us look at the other chart about rural America.
    This fact is even more important in rural America. Look at 
the disparity between the miles traveled and the fatalities in 
rural America. All of this is because, in rural America, the 
notification time--the time from an accident to the time that 
the 911 call gets placed--is almost double what it is in urban 
areas. So what we are talking about is time and how you can use 
wireless phones to cut the period of time and, therefore, save 
lives.
    There is another important component as well and that has 
been referenced previously and that is that you have to know 
where that incident occurred. Because on a wireline phone, you 
know the address of that telephone number. But on a wireless 
phone it could be anywhere. So we are proud of the fact that we 
worked with APCO and other public safety community 
representatives and the FCC to come up with the rule that 
developed the enhanced 911, latitude and longitude location 
capability for wireless phones when the victim uses it to call 
emergency services. It is clear: Wireless phones save lives.
    Unfortunately, I am here to report today that the wireless 
safety net has all kinds of holes in it and that those holes 
don't need to exist. Wireless subscribers don't know what 
number to dial to summon help. You had in this hearing last 
year Representative Danner testifying about an experience in 
her district where someone called three different numbers, and 
they were all the wrong numbers, on the wireless phones trying 
to report an unsafe driver to the police. They couldn't get 
through because the numbers didn't work, and as they drove down 
the road they found that this person they had been trying to 
report had crashed into another car, killing a mother and her 
child. She talked about how there are six different numbers 
that you would have to use as you drive from Washington to her 
district in Kansas City. That is why we support making 911 a 
uniform national number.
    But even if Good Samaritans do know the number to call, the 
call must go through. And that means there must be an antennae 
to hear the call. The Rock Creek Park situation would be silly 
if it weren't so shameful. And it is representative of other 
experiences across the country. Outside of Federal properties, 
the FCC has told us that they will not do for the placement of 
antennas to receive emergency what they have done for the 
placement of antennas to receive Jerry Springer reruns. There 
is something wrong in that process. There must be a solution 
here and it won't happen without a deadline.
    We have talked how location technology can save lives, but 
location technology won't happen without some kind of State 
coordination. There are thousands of public safety answering 
points out there right now, each of them a god unto itself. 
There needs to be a common plan amongst them all.
    Let me give you one example in the State of Virginia. In 
Virginia, the State police handle all 911 calls from wireless 
phones. That is an issue in and of itself; it shouldn't go to 
the State police. But the State police has refused to receive 
911 from PCS phones, saying instead, ``go to the PSAPs.'' Go to 
public safety answering points. So when the PCS carriers go to 
public safety answering points, they say, ``no, we don't do it. 
Go to the State police.'' And they are getting ping-ponged back 
and forth and people can't call, simply because there isn't a 
State plan in place.
    Last year's legislation created a State plan. It did it 
through the funding mechanism. There is no such mechanism this 
year. We hope that at the very least the FCC will move in this 
area and, hopefully, this bill will too.
    Finally, we need to stop discouraging Good Samaritans, both 
corporate and individual as well as PSAPs from doing the right 
thing. If I place a call from my landline phone to 911 and 
something untoward happens--an Act of God--I am not liable nor 
is the carrier. If I do that on my wireless phone, I can be 
liable as can the carrier.
    This raises a couple of simple questions. No. 1: If 
consumers knew that being Good Samaritans exposed them to 
liability, how would they act? And, No. 2: If you are a carrier 
and you are being asked by this rule that we negotiated with 
public safety and the FCC to put new location technology--new, 
risky technology in place--would you do it if you knew that 
your liability was being expanded by this? And, finally, the 
biggest outrage: There are public safety answering points, 911 
services, who are not answering the phones because of their 
fear of liability.
    In suburban Chicago, they don't answer 911 calls from PSC 
phones because they interpreted the statute to say that this 
dealing with airwaves, which is a very fragile connection, 
could increase their liability. That is wrong. We have got to 
fix that.
    I look forward to discussing these issues and to also 
supporting your efforts on the eavesdropping bill to stop the 
electronic stalkers.
    [The prepared statement of Thomas E. Wheeler follows:]
 Prepared Statement of Thomas E. Wheeler, President and CEO, Cellular 
                Telecommunications Industry Association
    Mr. Chairman and Members of the Subcommittee: Thank you for the 
opportunity to appear before you today to present the wireless 
industry's views on legislation to promote and enhance public safety 
through the use of emergency 9-1-1 service. I am Thomas E. Wheeler, 
President and CEO of the Cellular Telecommunications Industry 
Association (CTIA) representing all categories of commercial wireless 
telecommunications carriers, including cellular and personal 
communications services (PCS).<SUP>1</SUP> The wireless industry is 
founded on innovation, competition and safety. Today, my testimony will 
focus on safety and discuss how Congress can be instrumental in 
delivering unprecedented safety benefits to consumers across America.
---------------------------------------------------------------------------
    \1\ CTIA is the international organization which represents all 
elements of the Commercial Mobile Radio Service (CMRS) industry, 
including cellular, personal communications services, wireless data. 
CTIA has over 750 total members including domestic and international 
carriers, resellers, and manufacturers of wireless telecommunications 
equipment. CTIA's members provide services in all 734 cellular markets 
in the United States and personal communications services in all 50 
major trading areas, which together cover 95% of the U.S. population.
---------------------------------------------------------------------------
    Pursuant to Rule 4(b)(2) of the Committee Rules, I have submitted a 
curriculum vitae together with my testimony. For the record, also 
pursuant to Rule 4(b)(2), CTIA has not received any federal grants or 
contracts during the current fiscal year or during either of the two 
preceding fiscal years.
    At the Subcommittee's request, my comments today will begin by 
addressing the Wireless Communications and Public Safety Act of 1999. I 
would like to share with you not only our views on the bill, but also 
some of what we learned in the course of last year's legislative 
efforts to enact a wireless 9-1-1 bill. I will conclude my remarks with 
a discussion of the Wireless Privacy Enhancement Act of 1999.
    Last year, this committee demonstrated its commitment to public 
safety by passing out of the subcommittee and full committee the 
Wireless Communications and Public Safety Act of 1998 (H.R. 3844). It 
was a bipartisan bill that took into consideration the ranking member's 
concerns such as the need for privacy in respect to information 
provided through location technology. However, some concerns remain 
over whether or not the bill reached into state prerogatives. As a 
result, this committee, Republicans and Democrats, as well as the 
National Association of Counties (NACo) and the National League of 
Cities (NLC) have agreed to a less ambitious plan but one that will 
improve wireless emergency communications. I applaud the efforts of the 
Committee and staff for their work to put together the Wireless 
Communications Public Safety Act of 1999.
    There are now nearly 68 million ``safety sentinels'' in the United 
States--68 million subscribers who speed the delivery of safety 
services by providing rapid reports of car crashes, aggressive and 
impaired driving, serious crimes, and other threats to our communities. 
There are literally thousands of Americans who credit their wireless 
phone with aiding a fellow citizen, preventing a crime or in the 
ultimate form of public safety expression, saving a life--it is a 
distinction that the wireless industry is proud of and inspired by. 
CTIA will continue to work diligently to press for legislation that 
improves the safety role of wireless telecommunications.
    Over 98,000 wireless emergency calls each day are delivered to 
emergency services--more than ten times the number of such daily calls 
made just a decade ago. A survey conducted one year ago showed that 35 
percent of wireless phone owners had used their phones in an emergency 
or life-saving situation. Security was rated the most important reason 
for purchasing a wireless phone by 88 percent of people planning to buy 
one. The wireless industry is acutely aware of our customers' 
conviction that wireless phones provide an invaluable safety link to 
emergency medical care, law enforcement, and other public safety 
agencies.
    In recognition of the enormous role our technology can play in 
these situations, CTIA began several years ago to seek out ways in 
which wireless could participate constructively in public safety 
efforts at all levels for the benefit of our communities and the public 
at large. Individual carriers and manufacturers are hard at work using 
wireless technology to improve and protect public health and safety. 
Service providers and manufacturers donate service and equipment both 
to help in sudden emergencies such as ice storms, tornadoes and other 
related weather disasters, as well as to help fight crime in 
communities nationwide. As part of the ``Communities on Phone Patrol'' 
(COPP) program, wireless phones and airtime have been donated to more 
than 8,000 watch patrols in communities across the country where more 
than 150 million Americans live. Through our ClassLink program, 
carriers donate wireless phones and airtime to teachers to increase 
their efficiency and to enhance their students' safety. And we sponsor 
an ongoing multimillion-dollar advertising campaign; recognizable by 
the slogan ``Safety Is Your First Call''.
    In the last two years, we have expanded our safety efforts 
considerably by working with and learning from 9-1-1 directors, 
Emergency Medical Services experts, the American Automobile Association 
(AAA), the National Emergency Numbers Association (NENA) and the 
Associated Public Safety Communications Officials (APCO) on how to 
better serve the public. Last year, CTIA joined with state and local 
public safety officials, emergency and trauma care physicians, 
emergency nurses, other medical professionals, and health care groups 
like the Brain Injury Association and the American Burn Association to 
form the ComCARE Alliance--which stands for ``Communications for 
Coordinated Assistance and Response to Emergencies''--a coalition with 
which many of you are familiar. We continue to work with these 
organizations to provide a system that reduces response times to 
emergencies, lessens the severity of injuries and saves lives.
    Mr. Chairman, last June you stated that, ``Although deaths from 
vehicle crashes have declined in recent years, death at the scene prior 
to emergency medical care have doubled in the past 20 years. They now 
exceed 20,000 per year. In forty percent of the crash fatalities today, 
response time was twenty minutes or more. In urban areas, the average 
EMS response time is 30 minutes, in rural areas it is 50 minutes or 
longer.'' It is incumbent on the wireless industry, the Congress, the 
Federal Communications Commission and other related agencies to reduce 
these numbers in what the medical community refers to as the ``golden 
hour'' where ``time is tissue.''
Designation of a Universal 9-1-1 Number
    The first requirement in achieving the safety goals of the wireless 
industry, and previously mentioned safety advocates, is the designation 
of the number 9-1-1 as a uniform and universal telephone number within 
the United States for reporting an emergency to and requesting 
assistance from appropriate authorities, whether on wireless or 
wireline telephones. The same designation also would be required by any 
numbering agency or entity to which the FCC has delegated authority 
under section 251(e) of the Communications Act of 1934.
    The lack of a uniform wireless emergency dialing code creates 
unnecessary confusion and impairs the ability of mobile customers to 
request emergency assistance quickly and easily. Even along an 
interstate highway within one state or even one community, a mobile 
customer may be required to know and dial several different numbers to 
reach the right emergency response agency. Wireless carriers can 
program their switches to route a 9-1-1 call to emergency services, but 
too often they are prevented from delivering that call. In suburban 
Chicago, for instance, because of liability concerns PSAPs are refusing 
to process wireless E 9-1-1 calls, requiring carriers to send E 9-1-1 
calls to a third party that answers the call and then routes it to the 
appropriate safety agency.
    Mr. Chairman, you recall the story of eight-year old David 
Duplantis from Louisiana. David was fishing with his uncle and 12-year 
old cousin when his uncle noticed the fuel pump on the boat wasn't 
working properly. As he began pumping fuel manually, a sudden leak in 
the hydraulic steering system caused the boat to veer sharply and crash 
into the bank of a canal. The force of the crash smashed the boat and 
damaged all the electrical equipment, including the radio. David was 
shaken in the crash, and his cousin was thrown to the front of the 
boat, where he lay unconscious. Fading in and out of consciousness from 
serious injuries sustained during the accident, David's uncle managed 
to tell David where his wireless phone was and instructed him to dial 
9-1-1. Deeply embedded in a bank of a canal and covered by trees, David 
stayed on the phone with emergency operators for 45 minutes as rescue 
workers searched for the boat. David finally flagged down a helicopter 
and directed it to the boat. The injuries David's uncle sustained kept 
him on life support for two weeks and in intensive care for a full 
month. Can you imagine if the emergency number had not been 9-1-1? 
Picture this heroic eight-year-old frantically trying to track down a 
non 9-1-1 number to call for help.
    9-1-1 was not the emergency number in Carthage, Missouri in the 
fall of 1997 and the consequences were tragic as reported in the St. 
Louis Post-Dispatch.
          When a Kansas couple noticed a van bobbing and weaving in 
        traffic south of Carthage, Mo., on Thanksgiving Day, they tried 
        repeatedly to alert authorities by cellular phone.
          But by the time they got through it was too late--the van had 
        crashed into another vehicle in an accident that claimed three 
        lives.
    The article described how Ms. Luann Bertaux called three different 
numbers from her wireless phone, none of which worked. The first number 
she dialed was 9-1-1 where she got a recording. Then she dialed 
information and asked the number of the police department for an 
upcoming town, that didn't work. Finally, she called information again 
and asked to be connected to the police department directly. The police 
responded--but it was too late, Ms. Bertaux watched as the driver whom 
she had been trying to report for15 minutes crashed head-on into a van 
killing a two-year old and his mother. In Missouri, the wireless number 
to reach the highway patrol is *55, if it had been 9-1-1 there might 
have been another Thanksgiving for a two year-old boy and his mother.
    As stated by Representative Pat Danner (MO-6th) in a December 8, 
1997 editorial to the Kansas City Star, ``If a motorist were to travel 
from Kansas City to Washington D.C. on Interstate 70, the traveler 
would have to know to dial *55 in Missouri, *999 in Illinois, 9-1-1 in 
Indiana, *DUI in Ohio, 9-1-1 in Pennsylvania and *77 in Maryland . . . 
Further, in the United States as a whole, there are as many as 15 
different cellular assistance numbers. The system should not be so 
convoluted.''
    Congressional action to designate 9-1-1 as the universal wireline 
and wireless emergency number in the U.S. would provide protection to 
all Americans against these types of senseless tragedies. A uniform 
national primary emergency telephone number is increasingly important 
because so many Americans use wirelesses telephones to report 
emergencies, and, increasingly these same Americans are using their 
wireless phones outside of their local service area (in areas where 
they are less likely to know the local primary emergency number if that 
number is not 9-1-1.)
Implementation of Statewide Plans
    The Wireless Communications and Public Safety Act of 1999 requires 
statewide coordination of the efforts of local public safety, fire 
service and law enforcement officials. The emergency communications 
needs of the United States are currently served by 15,000 Public Safety 
Answering Points (PSAPs). These PSAPs are generally housed within local 
government organizations, such as local police or fire department. Each 
of the PSAPs are autonomous units. Some states have adopted uniform 
statewide 9-1-1 implementation plans, and designated a single official 
in charge of 9-1-1 for the entire state in order to have better 
emergency communications services. Other states send 9-1-1 calls to a 
state police office, even if it is located miles away from the 
emergency. Comprehensive and coordinated state plans are needed so that 
calls get routed to the appropriate place in a timely manner.
    A significant barrier to implementing location and other wireless 
safety advancements in a timely manner is that public safety centers 
and PSAPs in many states are coordinated by a variety of local, county, 
and state government and regulatory authorities. This creates a 
difficult environment for private sector carriers to readily implement 
networks when they must work out individual technology and funding 
arrangements on a county by county, or worse yet, a city-by-city basis.
    A wireless carrier in Virginia is a case study into why statewide 
plans are needed. Triton PCS, Inc. has been licensed by the FCC to 
provide wireless communications (PCS) service throughout the 
Commonwealth of Virginia (other than Northern Virginia). In Virginia, 
the State police receive all wireless 9-1-1 calls. If the call is not 
one for which the State Police is the appropriate public safety agency, 
the call is routed to the local PSAP. In connection with establishing 
its service in Virginia, Triton telephoned and wrote to the State 
Police, requesting the State Police provide Triton the applicable State 
Police 9-1-1 routing numbers. On each occasion, Triton was informed 
that the State police would not accept 9-1-1 calls from new wireless 
providers in Virginia, and that Triton should contact each PSAP in 
Virginia for its routing information.
    For months Triton contacted literally dozens of PSAPs in Virginia. 
PSAP Administrators repeatedly told Triton that wireless 9-1-1 calls in 
Virginia are routed to the State Police. In light of the contrary 
information, Triton subsequently sent faxes, and then certified letters 
to sixty-six PSAPs, requesting their respective 9-1-1 routing 
information. Many of the written responses repeat that the State Police 
handle wireless 9-1-1 calls in Virginia and should be contacted instead 
of the State Police. Clearly, statewide planning and cooperation needs 
to be encouraged.
Liability Coverage
    Another critical issue that adversely impacts the full realization 
of wireless's safety potential is the legal liability triggered by 
offering safety-enhancing services. The Wireless Communications Public 
Safety Act of 1999 resolves this problem by conferring on wireless 
carriers precisely the same liability protections that wireline 
carriers have long enjoyed, and by conferring on wireless Good 
Samaritans the same legal protections that their wireline brethren have 
as well.
    The fact that traditional wireline 9-1-1 service can occasionally 
engender problems or unintended consequences has been long recognized 
in telecommunications law. The physics of radio communications prevents 
perfection, either in call completion or in location. Wireline carriers 
file tariffs that contain a limitation on liability when things don't 
work as intended. Because we are a competitive industry policy makers 
have determined that wireless carriers do not file tariffs. Moreover, 
even if they did, because we are required to deliver 9-1-1 calls from 
non-subscribers, no tariff would bind those individuals anyway. There 
is no valid public policy reason that wireless carriers in this respect 
should suffer legal consequences different in any jurisdiction than 
those attaching to wireline carriers in the same jurisdiction.
    The threat here is real. Consider, for example, the FCC's E9-1-1 
rule that in Phase II requires a 67 percent success expectation. The 
rule recognizes that 100 percent accuracy is impossible.
    This bill strikes a rational approach to the liability differences 
between wireleine and wireless. The proposed bill establishes, among 
other things, a principle of parity between wireless and wireline in 
protection for: (1) the provision of telephone services, including 9-1-
1 service, and (2) the use of 9-1-1 service. The bill provides for 
wireless providers of telephone service to receive at least as much 
protection from liability as local exchange companies receive in 
providing telephone services (subject for a two-year period to 
enactment of State opt-out legislation as to non 9-1-1 services.)
    The limitation on liability for wireline carriers encouraged the 
widespread adoption of wireline 9-1-1 and E9-1-1 services. The same 
encouragement should and must be given to wireless carriers.
Advancement Towards a Seamless, Ubiquitous System
    I realize that federal siting has been removed from this year's 
bill, but I would be remiss if I did not touch upon it and use an 
example of how siting remains a problem. Even with a universal wireless 
emergency number, liability protection and statewide plans, all are 
useless if a call is placed in an area without coverage. Protecting the 
public's health and safety through the use of our telecommunications 
infrastructure is not simply a matter of telling everyone to dial 9-1-
1. The call has got to go through. In the absence of government action, 
there remain locations where the call cannot be delivered--``dead 
zones'' in wireless coverage where it is not possible to complete a 
wireless 9-1-1 call. One part of the solution to this problem is to 
improve on the use of thousands of Federal buildings and other 
structures, as well as millions of acres of Federal land, to help fill 
those dead zones.
    As this Committee noted in its Report on H.R. 3844 last year, 
neither the President's 1995 Memorandum to Federal agencies urging them 
to facilitate the placement of wireless antennas on Federal property, 
nor section 704(c) of the Telecommunications Act of 1996, which 
directed them to do so, has resulted in a change of attitude on the 
part of most Federal agencies with respect to this subject. With a few 
welcome and notable exceptions--including the Postal Service, General 
Services Administration, Bureau of Land Management, and the Forest 
Service--most Federal agencies continue to ignore this imperative 
completely, or to erect uneconomic, if not insurmountable, barriers to 
siting.
    Nearly one year ago, on March 24th, I sat before this Subcommittee 
and participated in a dialogue with Ranking Member Markey and the 
Deputy Director of the National Park Service about the need for 
antennas in Rock Creek Park. It's worth recalling the following 
exchange between Representative Markey and the Park Service's witness:
          Mr. Markey. . . . Well, let me ask you this, Mr. Galvin: If 
        they apply within the next week, how long do you think it would 
        take to get something approved?
          Mr. Galvin. Less than 60 days.
          Mr. Markey. Less than 60 days. Okay. You've got a--the 
        starter's gun has gone off . . .
    Well, Congressman Markey and Members of the Subcommittee, the 
application was filed on April 3rd, 1998. It took the Park Service 
until July 10th to find the application complete (requiring copies of 
FCC licenses, copies of bank certifications, and other minor 
documents). Three months later, once the application was deemed 
complete, the Park Service requested $25,000 to begin the study. It is 
now approximately nine months later, and you still can't use your 
wireless phone in Rock Creek Park. That's because contrary to Mr. 
Galvin's promise, the application still has not been approved. In fact, 
the Park Service demanded that the carriers pay over three hundred 
thousand of dollars for an environmental study designed to show why 
antennas should not be permitted on a tennis stadium's existing light 
towers and in the Park's maintenance yard.
    As you suggested during that hearing last year, Chairman Tauzin, if 
you multiply the Rock Creek Park situation over and over again, you 
will begin to understand what we face on a regular basis from the Park 
Service and other Federal agencies across the country. If together we 
are to create the seamless end-to-end public safety communications 
system that we all envision, this kind of bureaucratic obstinacy must 
cease.
    I am pleased to report that in the closing days of the 105th 
Congress, we began a very constructive dialogue with Assistant 
Secretary of the Interior for Policy, Management, and Budget, John 
Berry, aimed at helping the Department better understand the intentions 
underlying the legislation and addressing the legitimate concerns and 
questions the Department raised. Although those discussions were 
suspended when Congress adjourned, we look forward to continuing our 
discussions with the Department of Interior in the months ahead.
    The discussion with the Interior Department was gratifying in part 
because we found that once we were in the same room as people who 
thought we were their adversaries, many of their concerns reservations 
about the legislation were allayed when they better understood the 
bill's purposes. I would like to extend the same hand of friendship to 
the representatives of local government, primarily the National League 
of Cities (NLC) and the National Association of Counties (NACO), who 
objected to the wireless public safety bill as written last year.
    This legislation is about saving lives, reducing the severity of 
injuries, and extending those benefits to all Americans, no matter 
where they live, work, or drive. This is not a matter on which mayors, 
city councils, zoning boards, and county governments should be at odds 
with us or with doctors, nurses, public safety agencies, and health 
care groups.
    I would like to address the privacy aspects of the proposed bill. 
Protecting location data is of extreme importance to Ranking Member 
Markey and I assure the committee it is of equal importance to the 
wireless industry. I applaud Mr. Markey's commitment to making sure 
that sensitive location data does not fall into the wrong hands or is 
not abused by government or commercial entities.
    Finally, Mr. Chairman, I would like to offer some comments on the 
FCC's role in the safety issues that I have touched upon today. I do 
not doubt the Commission's sincerity or interest in improving the 
Nation's public safety communications infrastructure. Issuing rules to 
expand wireless emergency services by allowing, for example, non-
subscribed phones to access emergency services, simply isn't a coherent 
public safety policy. The FCC could and should have acted already on a 
universal wireless emergency number, limited liability protection for 
wireless, statewide planning of emergency services and mechanisms for 
cost recovery. However, I am genuinely encouraged by the new leadership 
recently placed in the Wireless Telecommunications Bureau. In the past 
several weeks, CTIA has participated in productive discussions on a 
variety of topics and there appears to be a willingness to resolve 
outstanding issues.
    Relative to E 9-1-1, the FCC's E9-1-1 rule has been misused as a 
revenue-generating device, forcing consumers to pay so-called ``9-1-1 
taxes'' while the money is diverted to purposes other than achieving 
wireless E9-1-1. We hope that the FCC would act quickly to clarify the 
cost recovery rules so that funds intended for safety purposes are not 
diverted to other unrelated concerns.
    Furthermore, the FCC has indicated that it will not act to preempt 
local siting decisions even when they endanger public safety. The FCC 
does not want to grant liability protection I raised earlier. And there 
are many other issues relating to cost recovery, interface with the 
PSAPs' systems, decisions favoring one technology over another, and 
reliance on local exchange carriers' switching and routing, to name a 
few, that remain to be addressed. We have endeavored to work 
cooperatively with the FCC on these matters and, as I mentioned earlier 
we will once again work on these issues with the new management at the 
FCC's Wireless Telecommunications Bureau.
    We are pleased, Mr. Chairman, that you and the Members of this 
Committee and Subcommittee, on a broad and bipartisan basis, have 
recognized the importance of this safety agenda. CTIA encourages you 
and the Subcommittee to move forward once again to weave the next 
generation of wireless technology together with the sophisticated 
medical and emergency response capabilities now in place or under 
development, in order to create the seamless, ubiquitous, end-to-end 
communications infrastructure for public health and safety envisioned 
by Wireless Communications and Public Safety Act of 1999.
    Thank you for your consideration of our views.

    Mr. Tauzin. Thank you very much, Mr. Wheeler.
    And now we turn to Mr. Dempsey. Jim Dempsey, the Senior 
Staff Counsel for the Center for Democracy and Technology. 
Thank you for your testimony, Mr. Dempsey.

                 STATEMENT OF JAMES X. DEMPSEY

    Mr. Dempsey. Mr. Chairman, members of the subcommittee, 
good morning.
    The Center for Democracy and Technology is pleased to 
appear before the subcommittee today on one of the critical 
civil liberties issues of our time, the protection of privacy 
in the new communications media. These new technologies which 
so greatly enhance our lives, which hold such potential for 
promoting democracy and freedom, but, at the same time, which 
pose an obvious risk to privacy.
    We are an independent, non-profit organization. We work to 
protect and advance civil liberties in the new communications 
media. We believe that the privacy challenge presented by these 
new technologies can best be addressed through a combination of 
technology tools, sound industry practices, and enforceable 
legal baselines. Today the subcommittee has before it two bills 
that advance the protection of privacy in important ways. These 
bills also highlight some of the broader privacy issues that 
this subcommittee should address as the term progresses.
    The essence of our message is that privacy must be 
protected from the outset in the design of any 
telecommunications or information system and must be a 
component of public policy affecting telecommunications and 
electronic commerce. We have seen recently examples of what 
happens when privacy is not taken into account from the outset. 
Recently the Intel Corporation, which Mr. Markey in his opening 
statement made reference to, proudly announced the introduction 
of its powerful new Pentium III processor, only to face a 
firestorm of public opposition because the processor included 
an ID number that could be used to track browsing, reading, or 
purchasing and other activities on the Internet.
    At the same time, while we are worried about the Pentium 
III, we are seeing at the Federal Communications Commission, a 
proceeding under legislation which this committee and the House 
Judiciary Committee passed in 1994, the so-called digital 
telephony law, the Communications Assistance to the Law 
Enforcement Act, where the Federal Government is trying to 
impose design mandates on telecommunications carriers that 
really make some of the privacy issues we are talking about 
today pale by comparison. And this is something that this 
subcommittee will have to take a look at as it moves forward in 
this Congress.
    Our main focus today is the 911 bill and its crucial 
privacy protections. We are seeing 911 really is a perfect 
example of the challenge presented by new technology. The 
ability to use wireless phones, as has been said several times 
already, to contact police and fire and other emergency 
services, is a critical attraction of those phones and is a 
tremendous benefit brought by this technology. And it is 
appropriate for this committee to promote the development of a 
ubiquitous 911 system and a nationwide access to that through 
wireless phones.
    Locating wireless callers is part of such a system, and 
appropriately so. Obviously 911 callers want to be found. They 
want to be found quickly. Yet the tens of millions of wireless 
phone users do not want their phones to become tracking devices 
that they do not control. And the key concept here is the 
concept of user control. So we need to have a privacy principle 
built into the system from the outset.
    Last Congress, Mr. Markey and the chairman included such an 
amendment and Mr. Shimkus has appropriately included that into 
the bill as section 5 that was introduced this year. That is a 
critical part of this. It builds on existing legislation, the 
so-called CPNI or customer proprietary network rules, which 
limit the commercial use of this information, that this cannot 
go to direct marketers. The whole question of where you are as 
you travel about as this information is generated; this should 
not be used for purposes other than those connected with the 
provision of the service and, obviously, part of that is the 
911 location.
    We note, however, that the FCC in its digital telephony 
proceeding is right now proposing to impose upon carriers a 
separate mandate, in essence, a double mandate, to require 
wireless location to be built in for criminal investigative 
purposes, a wireless location capability that is not controlled 
by the user, that is not fully privacy-protected. And that is 
not what Congress intended at the time it passed that 
legislation. The purpose of the legislation--Congressman Oxley 
was very interested in it at the time and I am sure is still 
interested in it--was to preserve law enforcement wiretap 
capabilities and that was an appropriate objective. But that 
was balanced against the interests of privacy and the question 
of cost. And I am afraid this report that the concept of 
balance is being lost in the implementation of that law.
    The scanner bill represents another important improvement. 
It closes some of the ambiguities and gaps in current 
legislation that govern scanning devices. There are people out 
there who think that it is amusing to eavesdrop on wireless 
calls. There are other people out there who do so for criminal 
purposes. And tightening the law to prohibit the manufacture of 
those scanning devices where they are intended to or have the 
ability to intercept the cellular and PCS parts of the spectrum 
is an appropriate step. I would urge the committee to make sure 
that that law is properly and narrowly defined. There is 
obviously a significant scanner community that has a legitimate 
function.
    I would also note in the bill, in the amendment to section 
7.05, you have appropriately eliminated the word ``and.'' The 
law for many, many years, since 1934, had said intercept and 
divulge and a lot of people said, well we are intercepting it, 
but we are not divulging it, therefore not violating the law.
    I think there may be a problem with the way it was reported 
and enacted last year in terms of the divulge and publish to 
make it disjunctive and to make it a crime does get into some 
First Amendment questions and I think that the goal there is to 
get at the interception and eliminating the ``and'' and making 
it a crime to intercept plain and simple, I think, is the way 
that that should go. I would urge you to take a look at that.
    Mr. Chairman and members of the subcommittee, we urge you 
to make the 106th Congress the privacy Congress. The American 
public is more sensitive to privacy than ever before. Just as 
you have made in the 911 bill privacy protection a central 
component of that to give the consumer confidence, to give the 
trust in how this information is being used, which is a 
necessary baseline for this technology to be widely accepted as 
we want it to be, privacy should be a component of everything 
you do this year as you move forward on electronic commerce, 
digital signatures, and other legislation. The Center for 
Democracy and Technology looks forward to working with you. I 
would be happy to answer any of your questions now and to work 
with you to support these bills as they move forward.
    Thank you.
    [The prepared statement of James X. Dempsey follows:]
 Prepared Statement of James X. Dempsey, Senior Staff Counsel, Center 
                      for Democracy and Technology
    Mr. Chairman and Members of the Subcommittee, my name is Jim 
Dempsey. I am senior staff counsel at the Center for Democracy and 
Technology. The Center is pleased to have this opportunity to testify 
before the Subcommittee on one of the critical civil liberties issues 
of our time: the protection of privacy in the new communications media, 
which enhance our lives in so many ways and hold such potential for 
promoting freedom, but at the same time pose obvious risks to privacy.
    The Center for Democracy and Technology is an independent, non-
profit public interest policy organization in Washington, DC. The 
Center's mission is to develop and implement public policies that 
protect and advance individual liberty and democratic values in the new 
digital media. We believe that the privacy challenges presented by 
these new technologies can best be addressed through a combination of 
technology tools, sound industry practices, and enforceable legal 
baselines.
    Today, the Subcommittee has before it two bills that advance the 
protection of privacy in modest ways. These bills also highlight some 
of the broader privacy issues that the Subcommittee should address as 
the term progresses.
    The essence of our message is that privacy must be protected from 
the outset of the design of any communications or information system 
and must be a component of any legislation setting policy for 
telecommunications and electronic commerce. Unfortunately, this lesson 
has still not been learned. We have recently seen the Intel Corporation 
proudly announce its powerful new Pentium III processor only to face a 
firestorm of public criticism, including threats of a consumer boycott, 
because the processor included an ID number that could be used to track 
browsing, reading, purchasing and other activities on the Internet. 
Meanwhile, under the 1994 Communications Assistance for Law Enforcement 
Act (``CALEA''), the FBI is seeking to impose on the telecommunications 
industry surveillance features, including wireless phone tracking, that 
would do for the telephone system what we and others fear the Pentium 
III would do for the Internet. So far, in violation of CALEA, the 
Federal Communications Commission has tentatively agreed with the 
location surveillance demand and others.
    As the Subcommittee advances the two bills before it today, it 
should also address what is happening at the FCC under CALEA. The tens 
of millions of Americans who use wireless phones do not want them 
turned into tracking devices that can be turned on and off by the 
government. In CALEA, Congress made it clear that wireless phones 
should not be turned into location devices for surveillance purposes. 
The FCC is ignoring that clear Congressional directive, and is 
basically proposing to rewrite CALEA. The objectives of E911 service 
can be achieved fully without creating a tracking capability outside 
the control of the users.
    Mr. Chairman, we urge you to make the 106th Congress the ``Privacy 
Congress.'' We believe it has the potential to become just that. The 
American public is more sensitive to privacy than ever before. Just as 
the Subcommittee last Congress made privacy a component of the E911 
bill, privacy should be a component of every e-commerce and 
telecommunications bill you take up in the coming months, ranging from 
digital signatures to CALEA. The challenge is not an either/or choice 
between government regulation versus ``self-regulation,'' but rather to 
develop enforceable solutions that combine a spectrum of measures 
ranging from privacy-enhancing technologies, to industry codes of 
practice, private remedies, government enforcement of baseline 
protections that incorporate fair information practices and address 
abuses, and a balanced approach to governmental surveillance premised 
on a narrowly-focused surveillance capability and strict limits for 
governmental access.
 i. ongoing developments in telecommunications increase the urgency of 
      ensuring the privacy and security of wireless communications
    Advancements in telecommunications technology have conferred 
tremendous benefits on the American public and on individuals 
worldwide. The number of subscribers of wireless services continues to 
rise, as wireless technologies have become woven into peoples' lives. 
At the same time, the American public is deeply concerned that such 
advancements threaten to overwhelm the cherished right of privacy. The 
threats arise from both governmental and private surveillance.
    For the past thirty years, Congress has recognized that it must 
ensure that the laws protecting privacy keep pace with the changing 
uses of technology. From 1968, when it first enacted the wiretap law 
known as Title III, through enactment of the Electronic Communications 
Privacy Act (``ECPA'') in 1986, to the Communications Assistance for 
Law Enforcement Act of 1994 (``CALEA''), Congress has sought to balance 
three goals: (1) to provide strong legal protections for electronic 
communications, (2) to afford law enforcement a narrowly-focused and 
carefully limited authority to carry out electronic surveillance in 
serious cases, and (3) to encourage the development and widespread 
availability of new technologies.
    ECPA was based on the principle that privacy is good for both 
consumers and business. People will not use communications technologies 
they do not trust. By extending clear privacy protections to e-mail and 
cellular telephone conversations, ECPA boosted user confidence in those 
communications technologies when they were in their infancy, 
contributing to the dramatic success they have both experienced.
    When it enacted ECPA in 1986, Congress knew that it would have to 
return to the law of communications privacy periodically, as technology 
continued changing. Some small privacy enhancements were made in CALEA 
in 1994. Now, given ongoing developments in the realm of wireless 
communications and the Internet, we are at another juncture that 
requires another careful examination of the adequacy of privacy 
protection legislation: Cellular and other wireless telephones have 
become commonplace and are now widely used by ordinary citizens. 
Moreover, wireless transmission is no longer important only for voice 
communications. Wireless modems, wireless faxes, and wireless local 
area networks are linking computers and transferring data of a highly 
sensitive nature, including proprietary information, medical records, 
and financial data. Wireless links are becoming more and more important 
as gateways to the global information network. The Internet itself has 
blossomed since 1986 in ways that the drafters of ECPA never imagined.
    The ongoing development of telecommunications networks that are 
increasingly integrated, global, decentralized and wireless heightens 
the urgency of ensuring the privacy and security of wireless 
communications. Some of the needed changes fall outside the 
jurisdiction of this Committee, but we would like to mention them 
briefly to give a sense of the context. First, ECPA should be clarified 
to make it clear that wireless transfers of data are protected to the 
same extent as wireless voice communications. Second, the legal scheme 
of the wiretap laws, as amended by ECPA, should be expanded so that the 
US government has to obtain a court order when engaging abroad in 
surveillance of US citizens for criminal investigative purposes. 
Currently, the protections of the US Constitution offer little privacy 
assurance to US citizens whose communications cross international 
borders, and the protections of the wiretapping laws do not apply to 
eavesdropping from points abroad. Third, as networking expands and more 
and more records are kept outside the home, the protections rooted in 
the Fourth Amendment need to be extended so that records stored on 
networks receive the same protection as records held inside the home or 
office. Fourth, and this is a matter within this Committee's 
jurisdiction, individuals must be assured control over their personal 
data, through a combination of technology tools, industry best 
practices and enforceable legal standards incorporating fair 
information practices.
ii. wireless communications and public safety enhancement act: location 
                information requires privacy protection
    As a result of the new technology, more and more sensitive personal 
information is being transmitted over the airways and online. At the 
same time, the new technology generates an increasingly rich store of 
transactional data. Each time you log onto the Internet, each time you 
use the telephone, you leave behind digital fingerprints--the 
transactional records which, in real-time or stored and aggregated, 
provide a profile of your whereabouts, your activities, your interests, 
and your associations. Consumers and other users of the new 
communications technologies want control over this information. Limits 
on its use are essential if consumers are to have confidence in 
electronic commerce and digital communications. A central principle of 
fair information practices is that information generated in the course 
of one transaction should not be used for other purposes without the 
clear consent of the person to whom the information pertains.
    E911 is a perfect example. The ability to use wireless phones to 
contact police, fire or ambulance services in the case of an emergency 
is an obvious attraction of wireless phones, and it is appropriate for 
the Congress and the FCC to promote development of a nationwide 
wireless 911 system. Locating wireless phone users calling in emergency 
cases is appropriately part of such a system. Obviously, 911 callers 
want to be found by the emergency services, and quickly. Yet the tens 
of millions of wireless phone users do not want their phones to become 
tracking devices that they do not control. People carry these phones 
with them as they go about their daily lives. More than the wireline 
phone, the wireless phone tends to be directly associated with one 
individual. When a call is made on a wireline phone, it means that 
somebody is at the location, but it is not apparent who. When a call is 
made on a wireless phone, it is almost always the individual 
subscriber. In this way, wireless phone location information is far 
more revealing than the fact that a street address is associated with a 
wireline phone number. So we need to have strict rules governing use of 
this information.
    Wisely, Mr. Markey and the Chairman have included privacy 
protection in the Wireless Communications and Public Safety Enhancement 
Act (H.R. 3844 in the 105th Congress). The provision builds on the CPNI 
(Customer Proprietary Network Information) protections of section 222 
of the Communications Act, 47 U.S.C. 222, which are strong and 
consistent with fair information practices. Any effort to move forward 
with E911 should have these privacy standards built in. Strict coverage 
of location information is essential to public confidence in the 
wireless 911 system.
    We note that this bill does not address the question of 
governmental access for investigative purposes. The standard for law 
enforcement access has to be strict as well. Because location 
information is so sensitive, and because people carry their wireless 
phones with them as they go abut their daily lives and go places where 
they have a reasonable expectation of privacy, we believe the standard 
should be a full probable cause standard of the Fourth Amendment. This 
is probably not an issue within the jurisdiction of this Committee, but 
it would be a missed opportunity to let this bill get enacted without 
addressing the question of government access. (We note that Senator 
Leahy has proposed legislation making law enforcement access to 
wireless location data subject to a full probable cause standard.)
    With grave concern, we urge the Committee to take note that the FCC 
in its CALEA proceeding has tentatively concluded, incorrectly, that 
wireless location information is a CALEA mandate, in essence placing on 
carriers a double mandate and in the process probably unfairly tilting 
towards a network solution to the 911 location requirements. Wireless 
location under CALEA should be treated completely separately from 
location information for E911 purposes. Congress made it clear in CALEA 
that it did not intend to require location information for surveillance 
purposes. The Commission's tentative decision in the CALEA proceeding 
to require location information be built into wireless systems for 
surveillance purposes, not subject to user control, finds no support in 
the plain meaning of CALEA and is flatly contrary to the legislative 
history. In this and other ways, the Commission has tentatively sided 
with the FBI's expansive reading of the CALEA mandates, jeopardizing 
the privacy balance that Congress intended to achieve in that Act and 
imposing unnecessary costs on the carriers and ultimately on the public 
who will pay the bill, either as taxpayers or as ratepayers. This is 
something the Subcommittee should address as the 911 bill moves 
forward, or on another vehicle that addresses CALEA questions. It may 
require an amendment to CALEA to reemphasize Congress' intent that 
location information for surveillance purposes is not a CALEA mandate.
  iii. the wireless privacy enhancement act--the privacy of wireless 
         communications is entitled to strong legal protection
    In the current environment of global communications networks 
increasingly dependent on wireless links, it is a serious invasion of 
privacy to eavesdrop on cellular and other wireless telephone 
conversations. Cellular eavesdroppers are invading the privacy not only 
of the person who is using a cellular phone, but also of anybody else 
who is on the conversation using an ordinary landline telephone.
    Given the growth of wireless services, it is clear that Congress 
made the right decision in 1986 when it determined that intentionally 
intercepting cellular phone conversations should be a federal crime. 
Congress clearly has the authority to protect communications 
transmitted over the airwaves, and it did so with respect to cellular 
telephone conversations in ECPA, extending to the then-fledgling 
cellular telephone industry the same privacy protections that had 
applied to traditional wireline services.
    However, ever since wireless phones first appeared, there has been 
an electronic cat and mouse game between wireless phone users and those 
who find it amusing to eavesdrop, or find criminal opportunity in 
eavesdropping, on wireless phone conversations. ECPA made it a crime to 
manufacture, sell, assemble, possess or advertise any device that is 
``primarily useful'' for the interception of wireless telephone 
conversations, 18 U.S.C. 2512, and Section 302 of the Communications 
Act prohibited the manufacture, sale or use of nonconforming scanning 
devices, 47 U.S.C. 302a. Nonetheless, manufacturers, retailers and 
individuals have taken a very narrow view of this law, and consequently 
scanners are widely available still that intercept cellular telephones. 
The PCS spectrum isn't even covered by Section 302(d) of the 
Communications Act. For these reason, we believe that Congress should 
close the ambiguities and gaps in the scanner law.
    The Wireless Privacy Enhancement Act (H.R. 2369 in the 105th 
Congress), was passed by the House last Congress, and deserves to be 
reenacted this year. We believe that the main purpose of the bill is to 
clarify and further restrict the ability of private citizens to obtain 
equipment that can be used for eavesdropping on wireless phones. We 
urge the Subcommittee to ensure that the language is appropriately 
narrow, and does not cover legitimate equipment and conduct. On one 
specific point, it is not clear that the language concerning 
``divulgence, publication, or utilization'' is necessary in the 
amendment to Section 705(e)(3) and (4) of the Communications Act. We 
also hope that the Judiciary Committee eliminates the ``primarily 
useful'' ambiguity from 18 U.S.C. 2512.
   iv. while legal protections are important, they are not enough to 
ensure privacy--privacy and security must be ensured through technical 
                                 means
    The criminal law, however, is a limited remedy. Practically 
speaking, law enforcement agencies will never devote substantial 
resources to the investigation of eavesdropping cases. Even with H.R. 
2369 on the books, there will still be people who obtain or manufacture 
devices to eavesdrop on wireless phones. Therefore, the focus needs to 
be on manufacture and design of equipment to be less readily subject to 
being intercepted. This is, of course, mainly not a matter for 
legislation. The onus falls on industry to deploy strong encryption 
throughout the networks. I would note that in 1997, after the 
Subcommittee's last hearing on this issue, independent cryptographers 
broke the proprietary encryption technology used in millions of GSM 
(Global System for Mobile communications) phones nationwide, 
illustrating the dangers of insufficiently robust, proprietary 
encryption.
    The integrated, global, decentralized communications network is 
vulnerable to threats that infringe on individual privacy and also 
threaten the critical infrastructures that are dependent on 
communications. The vulnerabilities of encrypted computer files and 
electronic communications are well-documented. Unencrypted 
communications are open to criminal exploitation, and the losses to 
date from inadequate system security are enormous. The National 
Research Council concluded several years ago: ``Of all the information 
vulnerabilities facing US companies internationally, electronic 
vulnerabilities appear to be the most significant.''
    Wireless communications should not be--and need not be--the weak 
link in the integrated communications infrastructure. Strong encryption 
offers opportunities for enhanced security in the digital age. 
Widespread use of encryption to protect communications will prevent 
fraud and other extremely dangerous forms of crime. At the same time, 
encryption poses challenges to law enforcement agencies.
    Unfortunately, the policies of the US government have served to 
inhibit the deployment of robust encryption. The Subcommittee and the 
Congress will have to revisit the encryption issue this year. It has 
become clear that the current Administration policy is not viable, from 
either a privacy perspective or a law enforcement/national security 
perspective. As a recent study issued by the Center for Strategic and 
International Studies concluded, ``Continued reliance on limited 
availability of strong encryption without the development of 
alternative sources and means will seriously harm law enforcement and 
national security.'' It has become clear that there is no answer to the 
encryption issue that will guarantee the government access in all 
cases. The current policy of government controls on encryption will not 
work in the decentralized, competitive, global environment where 
criminals will always be able to obtain strong encryption to shield 
their communications. The sooner strong encryption is widely deployed 
in wireless systems for the rest of the population, the sooner privacy 
will be protected and fraudulent theft of services will be curtailed.
       v. congress should hold the fcc to the fulfillment of its 
        responsibilities to protect network security and privacy
    It would accomplish little to outlaw handheld scanners if the 
wireless (and wireline) switches themselves were vulnerable to hacking 
and unauthorized interception. Therefore, Congress should make sure 
that network security is properly addressed. There is in fact a pending 
proceeding at the FCC on network security, under CALEA. CALEA requires 
carriers to design their systems to be readily tappable by law 
enforcement. However, the same backdoors that give law enforcement 
access create new vulnerabilities for hackers to exploit. Congress was 
concerned to ensure that the changes made to accommodate law 
enforcement interception in compliance with CALEA did not increase 
system vulnerability. Therefore, CALEA included several important 
security provisions. One is section 105, entitled ``Systems Security 
and Integrity.'' In this provision, for the first time ever, Congress 
mandated that telecommunications companies ``shall ensure'' that 
interceptions within their switching systems can occur only upon the 
affirmative intervention of an individual officer of or employee of the 
carrier. Section 301 of CALEA requires the Federal Communications 
Commission to issue regulations governing system security. 
Unfortunately, the FBI has used the proceeding under Section 301 to 
urge the Commission to establish rules for non-technological aspects of 
surveillance operations, ranging from the personnel practices of 
carriers to their processing of surveillance orders. Meanwhile, the 
security concerns about the vulnerability of computerized surveillance 
functions that prompted Congress to enact Section 105 of CALEA are not 
receiving adequate attention.
    Concerns with network security go beyond CALEA. The FCC has both 
the authority and the responsibility under section 1 of the 
Communications Act, 47 U.S.C. 151, to ensure the security and 
reliability of the nation's communications networks. In the past, this 
Subcommittee has paid particular attention to reliability concerns in 
the public switched telephone network. In an increasingly decentralized 
and complex system, full attention to network security issues requires 
a broad look at the network security features available to users, 
including flexible and robust encryption. We urge the Subcommittee to 
work with the Commission on this pressing concern.
                               conclusion
    Congress should assure that current laws adequately protect privacy 
in light of ongoing developments in telecommunications technology. The 
two bills before the Subcommittee are modest steps towards that goal. 
The privacy protections in the Wireless Communications and Public 
Safety Act are critical to user confidence. In addition, we urge an 
amendment at an appropriate time to that bill to make it clear that 
government agencies can access location information for investigative 
purposes only pursuant to a probable cause court order. We also urge 
the Committee to address the question of the design mandates that are 
being imposed by the Commission on carriers under CALEA, especially the 
mandate to turn wireless phones into location devices controlled by the 
government. Finally, we note the failure of the FCC so far to address 
the network security and privacy implications of the surveillance 
features that are being designed into switches to comply with CALEA, 
and urge the Subcommittee to hold the Commission to its 
responsibilities.
    Thank you again for the invitation to testify today. We would be 
happy to answer any questions, and we look forward to working with the 
Subcommittee to realize across the board the privacy principles 
reflected in these bills.

    Mr. Tauzin. Yes, thank you very much, Mr. Dempsey.
    The chairman would like to remind members at this time that 
there is a very important demonstration today on Capitol Hill 
in room B-339 of the Rayburn building in the basement. The 
Business Software Alliance is putting on a demonstration 
entitled, ``Talking Technologies.'' It is a Members-only 
personal demonstration of cutting-edge software and Internet 
technologies related to, indeed, these very issues. So you may 
want to drop in to B-339 and catch up on some of the latest 
software technologies in this area, because these privacy 
issues are going to arise. And I know Mr. Oxley and other 
subcommittees of our committee will be working on e-commerce 
issues and will have a great deal of interest in these areas. 
It starts at 12:30 today. 12:30 until 1:30. So please stop by.
    I thank you again, Mr. Dempsey.
    And one final witness, Mr. Amarosa, the Vice President of 
Public Affairs of TruePosition, Incorporated.

                  STATEMENT OF MICHAEL AMAROSA

    Mr. Amarosa. Good morning. Good morning, Mr. Chairman. Good 
morning, members of the committee. My name is Michael Amarosa, 
and I am the Vice President for Public Affairs of TruePosition, 
which is a leading provider of wireless-enhanced location 
technology. I would like to summarize my testimony and ask your 
permission to submit the entire statement into the committee 
record.
    Mr. Tauzin. It is so ordered.
    Mr. Amarosa. Mr. Chairman, I would like to commend you and 
other members of the subcommittee for your support of the 
Wireless Communications and Public Safety Act, which was 
unanimously approved by the committee last year. TruePosition 
supports the passage of this important legislation because of 
its critical nature to the safety and welfare of the millions 
of wireless subscribers.
    I would like to talk about two issues this morning. First, 
the designation of 911 as a nationwide, universal emergency 
number. And, second, the need for liability parity for 
cellular, PCS, and other commercial mobile radio service 
carriers that provide enhanced 911 services. By this I mean 
wireless parity with wireline.
    E-911 refers to the ability of a wireless carrier to 
determine the actual location of a caller within a carrier's 
system. The caller's location and the call itself 
simultaneously are routed to the appropriate public safety 
answering point, the so-called PSAP. TruePosition and several 
other location technology companies have worked diligently to 
develop a workable technology to achieve this important goal. 
Our system is a network-based solution that is placed on the 
existing cellular and PCS networks. Thus it can easily be 
deployed, integrated, and managed with existing wireless 911 
networks and can be used by the 68 million wireless handsets in 
use today.
    Let me emphasize: This is not tomorrow's technology. This 
is today's technology. TruePosition is installing such a system 
in Greater Harris County in Houston, Texas, following 
successful tests in many cities, including a 350-square-mile 
test in southern New Jersey. Wireless location technology is 
commercially available today and can be quickly extended to 
every single wireless subscriber in the United States without 
any modification to the existing phones.
    To achieve our mutual goal, designating 911 as the 
universal number is critical. Studies have indicated that the 
number of wireless users is increasing at a rate of 10 million 
per year, and by the year 2001, there will be more than 100 
million wireless users in the United States alone. Contrary to 
what most Americans believe, 911 is not the universally used 
number across the country for calling emergency law 
enforcement, fire, and medical personnel. For example, various 
jurisdictions using phone numbers such as *77, *MSP, *99, *55 
just to name a few. Americans who are accustomed to dialing 911 
as the universal may be less than able to elicit timely 
emergency responses when traveling in these jurisdictions.
    As you know, wireless users are inherently transient. They 
routinely travel into different service areas, including other 
States. These users are not only less likely to know or be able 
to identify their location, they are even less likely to know 
the designated emergency number in that particular area. The 
universal number will enable the dispatchers to communicate and 
to locate the wireless phone subscribers in an emergency 
situations that are far beyond the reach of a wireline phone.
    My second point, Mr. Chairman: Last year the FCC required 
wireless carriers to identify the location of emergency 
wireless callers using automatic location technology. It is not 
enough, however, to create potential for this remarkable 
lifesaving tool without also protecting those who use it and 
implement it. Unfortunately, this is a situation we face today. 
Wireless carriers do not have the same liability protections as 
traditional wireline carriers. This results in unnecessary and 
unfair exposure to tort liability for the wireless carriers. 
TruePosition believes one of the primary obstacles to the 
deployment of location technology services is the carrier's 
potential exposure to lawsuits. This is an issue to be 
addressed by the Congress and we commend you for your efforts 
to do so.
    Mr. Chairman, let me share one startling fact with you. One 
out of every two phones, wireless phones, will call 911 
sometime this year. And the emergency dispatcher may not know 
where they are to be located. It is important to remember that 
E911 is about ordinary citizens who purchase wireless phones 
for personal safety and for emergency use. Policymakers need to 
make E911 a reality and to ensure that the emergency caller can 
be found.
    I thank you very much for this opportunity.
    [The prepared statement of Michael Amarosa follows:]
   Prepared Statement of Michael Amarosa, Vice President for Public 
                      Affairs, TruePosition, Inc.
                            i. introduction
    Mr. Chairman and distinguished members of this Subcommittee, my 
name is Michael Amarosa and I am the Vice President for Public Affairs 
of TruePosition, Inc., a leading provider of cellular telephone-based 
Enhanced 9-1-1 location technology based in Vienna, Virginia. Thank you 
for providing me with the opportunity to testify before you today on 
behalf of TruePosition.
    We would like to take this opportunity to talk briefly about two 
important and timely issues. First, we support the Wireless 
Communications and Public Safety Act of 1999 introduced by Rep. Tauzin. 
This bill proposes to designate ``9-1-1'' as a nationwide universal 
emergency number. We support the passage of this bill because it is 
critical to the safety and welfare of millions of wireless subscribers. 
Second, we would like to discuss briefly the need for legislation that 
limits liability for cellular, PCS, and other commercial mobile radio 
service (``CMRS'') carriers that provide Enhanced 9-1-1 services. 
Enhanced 9-1-1 (``E9-1-1'') refers to the ability of a CMRS carrier to 
determine the actual location of a caller within the carrier's system 
and relaying that location to the appropriate public safety answering 
point (``PSAP'') along with the emergency call itself. Without such 
legislation, CMRS carriers will be exposed to unlimited and unintended 
tort liability from mobile wireless users. This will permit parity with 
wireline E9-1-1 on the liability issue.
    TruePosition, like several other companies, has worked diligently 
to develop a workable technology that enables emergency rescue 
personnel to reach and treat trauma victims. The TruePosition Wireless 
Location system is an overlay that is placed on top of existing 
cellular/PCS phone networks. Thus, it can be easily deployed, 
integrated and managed with existing CMRS and 9-1-1 networks. 
TruePosition's system can pinpoint an emergency wireless caller's 
location and immediately forward that information to a PSAP closest to 
the caller. The Federal Communications Commission (``FCC'') refers to 
this as Automatic Location Identification (``ALI'') technology. ALI 
enables emergency rescue personnel to reach and administer care to 
crash and other trauma victims during the crucial ``golden hour'' 
immediately following an accident, even if the victim is unable to 
indicate her or his location. Moreover, TruePosition's ALI technology 
is now capable of performing ALI for all existing types of analog and 
digital CMRS networks. In fact, TruePosition is installing such a 
system in Houston today, and has already concluded successful tests in 
New Jersey. In short, ALI technology is workable and available now, and 
can quickly be extended to each of the more than 60 million current 
CMRS subscribers.
    I should emphasize that the inability to indicate one's location is 
not uncommon. This is also still the case in some areas for wireline 
E9-1-1. For instance, with emergency calls made from traditional 
landline phones the signaling information associated with the call 
passes the caller's phone number on to the phone company and then to 
the PSAP. The phone number of course denotes the caller's exact 
address, including one's apartment number if applicable, or even the 
specific location of a payphone. Thus, the little boy or girl who knows 
enough--and perhaps only enough--to call 9-1-1, or the sick or injured 
adult that is not sufficiently coherent or otherwise hangs up in 
distress or is disconnected before providing her or his actual address, 
can still have emergency care immediately sent their way. The emergency 
operator, examples of which we have all seen on television news shows 
and docu-dramas, already knows exactly where the caller is.
    This is not the case, however, with emergency calls made from 
cellular, PCS, and other CMRS phones. CMRS carriers have not yet 
deployed equipment to enable themselves to locate users who dial 9-1-1 
or other emergency numbers, even though such equipment has been readily 
available from TruePosition and others. Ironically, a recent poll 
indicates that two out of every three CMRS users believe that their 
phones are ALI-capable. In other words, most CMRS users are currently 
under a false sense of security because of their belief that, if they 
dial 9-1-1, the PSAP will automatically know the user's exact location. 
This poll also clearly shows that people want the added security that 
E9-1-1 provides and are willing to pay for protection. Thus, the issue 
is not consumer demand, but rather availability and carrier 
implementation. Recently initiated FCC proceedings, however, could 
invite delays of ALI deployment. Any FCC waiver of its rules or other 
action that relinquishes a carrier's responsibility to locate all users 
in a market by 2001 will have dramatic consequences . . . lives lost or 
seriously impaired.
    First, depending on the technology used by the particular CMRS 
carrier the phone number is not always passed on to the PSAP. Second, 
even if it is that phone number does nothing to indicate where the 
caller is located; the caller can be anywhere within the PSAP's 
jurisdiction (or even outside that jurisdiction), and ANY delay in 
locating the caller can very well be the difference between life and 
death.
    Indeed, in my 24 years in the public safety , I have learned that 
reduction in response times to emergency callers is the most crucial 
factor in saving lives in emergency situations. Further, I have worked 
closely with both public safety officials and emergency dispatchers and 
each have expressed increasing concerns about the need for technology 
and information systems to locate wireless emergency calls. In essence, 
although medical technology and procedures have advanced light years, 
the ability to locate citizens in need of those technologies and 
procedures on the nation's roadways has not. Unfortunately, despite the 
FCC's remarkable efforts to facilitate the development of technology to 
ensure the safety of wireless users, its recent regulations regarding 
wireless E9-1-1 leave unintended holes in the process and essentially 
do not adequately address the two very compelling issues I highlighted 
earlier. Fortunately, your proposed legislation can. The overall 
effectiveness of E9-1-1 technology would be forestalled without the 
adoption of a universal emergency number and the balanced resolution of 
wireless carrier liability.
    Mr. Chairman, we commend you and your co-sponsors for introducing 
the Wireless Communications and Public Safety Act of 1999. We hope that 
this legislation will address these concerns and it is our hope that it 
will help overcome the major roadblocks preventing the effective and 
immediate implementation of wireless E9-1-1.
                ii. support universal e9-1-1 legislation
    The universal E9-1-1 legislation is particularly crucial for 
wireless users for several reasons. First, studies indicate that the 
number of CMRS users is increasing at a rate of 10 million per year and 
that by the end of 2001 there will be over 100 million CMRS users in 
the United States. Contrary to what most Americans perceive, 9-1-1 is 
not universally used across the country for direct access to emergency 
law enforcement and medical personnel. For example, throughout the 
country jurisdictions utilize phone numbers such as *77,*MSP, and*99 in 
lieu of 9-1-1. Thus, Americans trained on the use of 9-1-1 as the 
universal emergency beacon may be left unable to elicit timely 
emergency care when traveling in these jurisdictions.
    Second, wireless users are inherently transient. In fact, wireless 
users routinely ``roam'' into other service areas, including areas in 
distant states. As such they are not only less likely to know or to be 
able to identify their location in an emergency, they are even less 
likely to know the designated ``emergency'' number in a particular area 
if it is not 9-1-1. A universal emergency number will enable emergency 
dispatchers to communicate with and locate these CMRS phone users--whom 
the industry refers to as ``roamers''--in emergency situations that are 
far beyond the reach of a wireline phone.
    I should emphasize that it is not our goal to preempt a state's 
right to designate an emergency number for use by its residents. Our 
goal simply is to promote safety. And we can demonstrate that a 
nationwide emergency number will promote safety and save lives. And 
that is and should be a principle goal of every legislature--state and 
federal. This goal is challenged, however, each year as the popularity 
and convenience of wireless phones increases. In 1998 alone, 
approximately 98,000 daily calls to emergency numbers were made 
nationwide, and at least 30 percent of those emergency calls were made 
by wireless users. That translates into more than 36 million calls for 
CMRS subscribers alone in 1998, and that number will increase 
exponentially as the number of wireless phones increases. In fact, 
studies show that a high percentage of consumers that subscribe to CMRS 
service at least in part for safety reasons is such that 9-1-1 has 
become synonymous with emergency assistance. It is, to the majority of 
telephone users, a lifeline to emergency services. Young children 
recognize it as such and the number has been and continues to be a 
vital lifeline to expedient and essential emergency care services to 
wireline users. Wireless users warrant and require the same provision 
of care nationwide.
              iii. liability limitation for cmrs carriers
    In 1998, the FCC released the second in a series of orders 
establishing key components to the rapid and efficient deployment of 
emergency wireless telecommunications services. As you know the 1998 
Order required CMRS carriers to identify the location of emergency 
wireless callers via Automatic Location Identification technology. ALI 
technology is the most effective resource that public safety 
organizations have to access trauma victims and reduce the loss and 
impairment of human life in connection with 9-1-1 calls made from CMRS 
phones. TruePosition and other E9-1-1 providers commend Congress and 
the FCC for their unflagging efforts to work with the CMRS and public 
safety industries to ensure the safety and welfare of wireless 
communications users. It is not enough, however, to create the 
potential for such a remarkable lifesaving tool without also protecting 
those who are required to implement it. Unfortunately, that is exactly 
what the FCC has done.
    CMRS carriers do not have the same liability protections as 
traditional landline carriers. Existing state tariffs allows landline 
carriers to insulate themselves from tort liability in connection with 
the provision of 9-1-1 service, including the relaying of number and 
address information of the caller. In contrast, pursuant to Section 332 
of the Communications Act and orders of the FCC, CMRS carriers are not 
subject to filing tariffs relating to the services they offer, thus 
they cannot receive comparable liability protection at the state level. 
Although the CMRS industry has petitioned for the authority to resolve 
carrier liability issues by filing federal tariffs, the FCC has 
declined to provide wireless carriers with such authority. Accordingly, 
CMRS carriers willing to provide E9-1-1 services that necessitate 
significant modifications to their wireless networks lack the 
opportunity to attain the same protections as landline telephone 
carriers that provide 9-1-1 service without having to modify their 
networks. The FCC's reticence not only unnecessarily exposes CMRS 
carriers to unlimited tort liability from CMRS users, it undermines its 
statutory goals and contravenes its policy on regulatory parity for 
like services.
    This is too harsh a consequence to impose on carriers, especially 
after they will have invested both time and money to locate wireless 
callers more quickly. More important, however, it is delaying the 
implementation of E9-1-1 for tens of millions of CMRS users. The FCC's 
rules do not require CMRS carriers to fully implement E9-1-1 ALI 
technologies until October 2001, and even then only if certain pre-
conditions are met. TruePosition believes that one of the primary 
impediments for CMRS carriers to implement ALI capability immediately 
is their exposure to liability--including the defense of a potentially 
never-ending stream of unwarranted lawsuits--that could result from 
their provision of ALI services. In short, the FCC's reluctance to 
authorize CMRS carriers to file federal tariffs or otherwise provide 
immunity for the offering of wireless E9-1-1 service that parallels 
that enjoyed by landline 9-1-1 service providers is delaying CMRS 
carriers' provision of this life-saving service. The FCC's failure to 
perceive this cause and effect impedes public safety.
    In addition, the FCC's over dependence on state regulation of 
carrier liability contravenes stated national E9-1-1 goals and 
minimizes the central role that liability protection has played in the 
effective administration of wireline E9-1-1. Since 9-1-1's inception in 
1968, wireline carriers have been afforded the protections of state 
tariffs. Thus, the FCC's claim that a carrier exemption from liability 
``is not necessary to the inauguration of E9-1-1 service'' is contrary 
to the uniform practice by all carriers in all states.
    Safety and emergency services are an imperative concern for the 
men, women, and children of this country. In fact, studies indicate 
that a large percentage of all wireless users purchase their phones, in 
part, to protect their safety. Yet, the FCC's most recent regulations 
have the unintended effect of hindering the rapid and efficient 
deployment of advanced emergency telecommunications services. 
Notwithstanding, TruePosition commends Congress for taking steps to 
bring about the legislative reform that will ultimately guarantee the 
prompt deployment throughout the United States of a seamless, 
ubiquitous, and reliable end-to-end infrastructure for wireless E9-1-1 
communications. Any delays in the implementation of Wireless E-9-1-1 
location technology will result in serious consequences for our 
citizens and thwart the efforts to provide more effective and efficient 
public safety services.
                             iv. conclusion
    I look forward to the successful passage of in its present form, 
offer any further help TruePosition can provide the Subcommittee in its 
deliberations, and would like to thank you again, Mr. Chairman, for 
giving me this opportunity to testify before you. I would be delighted 
to answer any questions you may have.

    Mr. Tauzin. Thank you, Mr. Amarosa.
    The Chair now recognizes himself and other members for 5 
minutes for questioning. And I will begin.
    First of all, Mr. Wheeler, I want to get to the issue of 
siting. The ranking member, Mr. Markey, pointed out that this 
year's bill does not contain the language of last year's effort 
dealing with siting on Federal properties. And, obviously, we 
are going to get to that issue in Rock Creek Park.
    There are three elements to this problem. One is having 
enough cells out there so that people can use their mobile 
phones or equipment in an emergency. The second is having a 
common number. And the third is having a locatable capability 
so that, in fact, we can take the search out of search and 
rescue. All three are critical to saving lives. And the bill 
contains, indeed as you all outlined and as Mr. Shimkus has 
filed, excellent provisions on the last two, on the common 
calling number and provisions for liability protection, privacy 
protections, and yet, at the same time, locatable technology so 
that when someone calls on a wireless phone Mr. Hanna, your 
office can know where he is just as readily as you can when he 
calls or she calls on a wired phone. Critical elements.
    But let us turn to the first element. Now I am told that 
much of the problems of 600 communities or 500 communities 
having ``just say no'' policies to new siting have been, in 
some ways, ameliorated over the last year. That there has been 
much more cooperation and cell sites are now much more 
available, although there are still problems and holes in the 
safety net. Would you give us an update on the cell siting 
issues and the problems for this country?
    Mr. Wheeler. Thank you, Mr. Chairman. I think that you have 
probably characterized it correctly. It is the old 80-20 rule. 
You know, I am not worried about the 80 percent that are really 
out there promoting safety for their citizens, but what about 
the 20 percent?
    Mr. Tauzin. Yes.
    Mr. Wheeler. You know, I tried to suggest in my comments 
that maybe there is a role for the FCC in this, different from 
the role, perhaps, we have asked them to do before. And perhaps 
there is a role for this committee and the Congress in helping 
the FCC get there because obviously, if I were sitting in Tom 
Sugrue's shoes, I hear differing reports from Members of 
Congress too. Some say do it; some say don't. And maybe there 
is a way we can work our way through it.
    For instance, let me just suggest that a policy statement 
from the FCC intended for the use of local zoning authorities, 
for judges that have to review those decisions of the law 
saying, hey, this is different. This is not siting a 
McDonald's. This is talking about public safety. This is 
talking also about building a competitive national pathway. And 
some kind of a serious message, not some ``on one hand and on 
the other'' kind of comment, but a serious message saying, Mr. 
County Commissioner, look at this differently. There are 
serious issues here that you need to look at.
    Mr. Tauzin. What you are saying is to the communities that 
makes zoning laws, a strong message that, look, we don't want 
to interfere with your zoning laws. You have a right to make 
those decisions. But, for heaven's sake, look at this; take 
this seriously. Look at it as a different application than the 
siting of a McDonald's or some other zoning issue you might 
have.
    Mr. Wheeler. Yes, sir.
    Mr. Tauzin. What about public agencies? Because we are 
going to turn to Ms. Finnerty in a second and the Park Service. 
What is the message here? We have left out the provision in the 
bill again, spelling out the leasing policy for the Federal 
Government, so that we would get more Federal sites available 
for tower siting, so that Rock Creek does not have to wait, 
even I think it is 75 days, if I might make a point, Ms. 
Finnerty, my understanding is that by March 3, 30 days have run 
on the assessment, public comment completed April 3, then by 
April 16, 2 weeks, final decision will be made on Rock Creek. 
That is 75 days. Is that correct?
    Ms. Finnerty. That is correct.
    Mr. Tauzin. I am told that is correct. So we are talking 
about another 75 days after a year of bureaucratic and company 
discussions and applications and back-and-forth. What is the 
message to public agencies like the Park Service? Is this 
process too slow? Is this Rock Creek Park, and the problems of 
people having access to cellular emergency services in that 
area, is that a problem still endemic around the country? What 
is the message to public agencies here? If you want to give 
that message to localities.
    Mr. Wheeler. The answer, Mr. Chairman, is it depends on the 
agency. The Bureau of Land Management has done a superb job.
    Mr. Tauzin. Okay.
    Mr. Wheeler. They have got an expedited process. They have 
got a good fee schedule. It works. For some reason, the Park 
Service hasn't ever--it was June 1994, by the way, 1994 that 
Bell Atlantic first approached the Park Service.
    Mr. Tauzin. We have some charts. I want to take you through 
this. I want to show what you are talking about and I want to 
ask Ms. Finnerty why it is so hard to get this approved.
    Here is a physical look at the current light poles at the 
tennis center which would be used to put up the cellular 
service. On that same tower, is my understanding.
    Show us a view next of what the tower would look like when 
you add the cellular antenna. Have them next door to each 
other. Hold them up where we can see.
    It is very little difference, as I can see. Is that 
correct?
    Let us look at the next pictures, which are the pictures of 
the current building configuration at the tennis center and 
what would be added in order to have the equipment building to 
service that tower site.
    No, that is the last one. That is the maintenance yard. But 
in the maintenance yard, we are talking about the addition of a 
small building and a pole, right? That is the only difference. 
And if you go back to the two center pictures, if you have them 
there, it is simply the addition of a small add-on to the 
building as I am looking at it here. If you don't have them I 
have them here.
    Yes. The before and after, the before is here and after is 
here. A very small addition to the building.
    Why on earth, Ms. Finnerty, does it take us from 1994 until 
today, where we finally got an agreement coincidentally the 
night before this hearing again to complete it in 75 days?
    Why does it take so long when there is a clear public need 
and those changes are so minor to the look, the feel, the taste 
of Rock Creek Park?
    Ms. Finnerty. Yes, Mr. Chairman, with your permission, I 
have an expert here with me who can answer questions.
    Mr. Tauzin. Well, you surely can have my permission. And my 
time is up, but I want someone to respond before I finish. So 
if you will introduce and have someone respond.
    Ms. Finnerty. All right. I will introduce John Parsons who 
is the associate regional director in the national capital 
region.
    Mr. Tauzin. All right. The question specifically is: 
Recognizing that those are the only changes that I am aware of 
that require physical alterations to the park--a piece of 
equipment on a light pole, the addition of a small building and 
a pole, and the addition of an add-on to the current building 
at the tennis center--if that is all it takes for us to give 
some modicum of safety and coverage to all the folks who use 
that wonderful park and who put their lives at risk sometimes 
because they don't have emergency access to wireless services 
there, why does it take so long for our government to say, 
okay, do it?
    Mr. Parsons. Mr. Chairman, if I may, I would like to go 
through what we have gone through.
    Mr. Tauzin. Yes. Well, do it quickly because my time has 
expired and I have other members and I want to let them ask 
questions. If you will just give me a quick answer, why did it 
take so long?
    Mr. Parsons. We received the application last May. Mr. 
Galvin's commitment to this committee was that we would come to 
the point in 60 days as to whether we would say yes, no, or 
maybe.
    Mr. Tauzin. You said maybe.
    Mr. Parsons. We said maybe. We said maybe. What we learned, 
which was no surprise to us, is managing parks in this city is 
like managing in a fishbowl. We had plenty of advice on both 
sides of this issue. And it became, very quickly, 
controversial. And the reason it did is people presumed that we 
would not be able to serve the entire park with these one or 
two antennas. And they were right. We were able to serve only 
30 percent of the park with these two antennas, as submitted to 
us by the applicant.
    So we decided, and we erred, that we would hire a 
consultant to help us with this issue. Because, as we have 
heard here this morning----
    Mr. Tauzin. You don't have enough people at the Park 
Service to do it, you have to hire consultants?
    Mr. Parsons. This is a total new industry to us. What we 
were trying to do was to assure ourselves and the citizens who 
use the park that they indeed would be safe in the park and 
they wouldn't be dropping 70 percent of the calls.
    So we hired a consultant who had expertise in this matter 
to assist us in determining how many antennas we would need to 
guarantee the public their safety. Unfortunately, the cost of 
that reached $300,000. And when we submitted the proposed bill 
to the applicant, they had concern, which I presume has been 
brought to your attention.
    We have now concluded that we are not going to do that. We 
are going to do an environmental assessment on the matter that 
you just showed on those two exhibits. We are not going to deal 
with the cumulative impacts of antennas in our park. We are not 
going to deal with how we will serve the rest of the visitors 
in the park. We are going to deal with these two applications. 
It is a much more simple process, one we can certainly complete 
in 75 days.
    Mr. Tauzin. And which could have been completed in 75 days 
last year.
    Mr. Parsons. Yes, it could have if we did not try to 
respond to the public concern that was expressed about the 
potential for many, many antennas in this park.
    Mr. Tauzin. I promise all of you this is the last question. 
Thank you. But here is the frustrating thing: I mean, here is a 
company that wants to start the process. You say it covers 10 
percent, 20 percent, 30 percent. They want to start the process 
of providing protection. And you hold it up for a year with 
arguments over whether or not you wanted to put up more towers 
and cover more areas.
    That is not the message I got. The message I got was that 
it was constantly being held up over environmentalist 
assessment reports and records and reviews and the agency was 
slow to approve this request which would serve a large portion 
of the park, if not all of it. And I just want you to know the 
frustration Mr. Markey and I felt with this when we thought we 
had an agreement that, in fact, in 60 days the application 
pending would be addressed and approved on its merits, yes or 
no. And, instead, we are now a year later--well, almost. It was 
1994 when the Park Service was first approached. And now you 
tell us, yes, we could have done it in 60 days last year had we 
agreed simply to look at this application and approve it or 
dismiss it.
    Just know how frustrating that is. Know how frustrated our 
entire committee is, that all of us are watching, as Mr. 
Wheeler said, these safety net holes and people dying and 
people not getting emergency services and how many people who 
are walking around with serious debilitations that could have 
been addressed properly had someone gotten to them in time?
    This new assessment is going to cost $40,000. That's going 
to be added to somebody's phone bill, I suppose, people using 
the park, to approve those changes that could have been 
approved last year. When this is all said and done, my 
committee, we are going to look at the total cost of this 
delay, not just in dollars, but in incidents in that park. And 
we will all be ashamed that we didn't do a better job, all of 
us, that we didn't get it done sooner. And I am finished.
    I just want to lay it heavily upon all of us that we can't 
waste another day while people out there dying and not getting 
help and not getting assistance because we foolishly put up all 
these bureaucratic barriers to getting assistance out there for 
them. Americans would be ashamed of us to know that it took a 
year for us to get approved something that could have been 
approved in 60 days. You have to do better. The Chair yields 
now to the gentleman from Tennessee, Mr. Gordon, for 
questioning.
    Mr. Gordon. Ms. Finnerty, you don't need me pounding on you 
right now, but let me just make a quick statement. I recognize 
that you are going through reorganization. I recognize that the 
Park Service doesn't have adequate funds to meet the needs that 
you have. And I also recognize that you have a special charge 
of maintaining our national heritage in so many ways and that 
you don't just cavalierly make changes, because, once you do, 
you can't get many of these things back.
    I have had similar situations where the Park Service--not 
only on this Rock Creek matter, but just on trying to get 
through the bureaucracy, trying to get something done, and I 
hope that maybe whatever comes from here can be an exercise 
that might be learned in other areas too. The Park Service has 
an important charge in our country but, goodness, you have got 
to be able to do a better job and be able to get answers and be 
responsive or you are going to lose--well, I won't go in to 
this now--but you are lose credibility and when you lose 
credibility it is going to make it harder for us to get your 
funds to get things to help this very important job that you 
do.
    Mr. Wheeler, in your testimony, I think the thrust of it 
was that wireless saves lives. And with that in mind, I 
understand that many or some of your members anyway or 
companies are applying to the FCC for waivers to postpone the 
implementation of phase two of the emergency 911 rule so that 
that they can explore the possibility of using handset-based 
technology which may not be available in time. And we have 
heard this morning that in phase two the rules require the 
automatic location information to be available the beginning of 
October 2001.
    And my question would be--the start of my question is: How 
long of a delay do you think would be required? And you gave a 
statement earlier today about the 41,000 calls that were being 
made earlier, how many lives will be lost or threatened during 
this delay?
    Mr. Wheeler. Let us start with the E911 rule. The E911 
rules were rules that we at public safety developed so let us 
start with the fact that those rules were ones that we 
literally went to the FCC and said, will you please impose 
these. Because I don't think there's any question as to where 
we are on the implementation of location capabilities.
    What we found, however, is that it is one thing to say 
there should be location and then there is something else to 
implement it. One of the implementational problems that I 
reference in my testimony is the fact that you have got so many 
different agencies out there that you have to deal with at the 
local level to develop the relationship so that the E911 call 
goes through. And each of them--it is the old 80-20 rule again. 
There are 20 percent of those who say, look, now we are going 
to do it different in my little corner of Tennessee or 
whatever.
    Mr. Gordon. I don't mean to cut you short, but I have a 
limited amount of time here. What, approximately, percent of 
your members are going to ask for delays?
    Mr. Wheeler. I don't know the answer to that.
    Mr. Gordon. What would you guess?
    Mr. Wheeler. I really don't know to be honest.
    Mr. Gordon. Would it be less than half?
    Mr. Wheeler. I am not trying to avoid your question, but 
what I am trying to point is that the determination of where 
are you on implementation is first a determination of where are 
you with the localities who can use the information once it is 
given to them. They are not ready for it. We have to have that 
relationship before we can build it.
    Mr. Gordon. I don't mean to be discourteous. I just have a 
limited amount of time.
    Mr. Wheeler. I am sorry.
    Mr. Gordon. When do you think you could get to us that 
information?
    Mr. Wheeler. I will try to do it with all dispatch, Mr. 
Gordon.
    Mr. Gordon. Okay. And let me go to the FCC here. I assume 
that, as these waivers come to you, are you going to provide 
some--what is going to be your criteria? Are you going to do 
some kind of cost-benefit analysis? What do you see happening?
    Mr. Sugrue. Absolutely, in the public interest. As I 
understand this, rather than characterize this as necessarily 
postponing the deadline, it is to shape the implementation 
requirements so that a different technology isn't sort of ruled 
out just because the rules were written with one particular 
type of technological solution in mind.
    When the Commission wrote these rules, it assumed that the 
only approach to provide this service was a network-based 
solution. You build it into the cell sites around the network. 
Since then, some folks have proposed what they call a handset-
based solution that would work in conjunction with the global 
positioning system, the satellite system that provides very 
precise location information. If our rules were applied 
literally, no one, no carrier, no system using a handset-based 
approach could satisfy our requirements. Not because we wanted 
to rule it out, because we wrote the rules in a way without 
that in mind.
    I think it is sort of that the various reasons why, 
procedurally, this is being styled as a waiver. I would almost 
prefer to think of it as a rule modification or update so we 
have an approach that doesn't inadvertently rule out one 
technology that may be very promising. So we are going to look 
at things like if you do the handset-based approach, which 
would involve a ramp-up, you might be required to start earlier 
so that the deadline may, in some sense, be stricter.
    Mr. Gordon. Will you looking at, I mean, maybe the 
difference in accuracy? I mean, whether it is a, you know, 
minimal amount or--and also cost?
    Mr. Sugrue. One of the tradeoffs will be whether the 
current rule provides for location information with 125 meters 
on a measured average basis. Now that's about 400 feet. One 
thing we are going to ask is if you are going to ask for a 
waiver, will you be able to do better then that if you get the 
waiver? So can you get inside 125 meters as a standard? And one 
of the things we might do is say you get the waiver if you 
commit to high accuracy levels.
    Mr. Gordon. So are you going to present to us some type of 
what these criterion are going to be? Are you going to be more 
specific about it?
    Mr. Sugrue. Sure. We could present that. Yes.
    Mr. Gordon. Thank you.
    Mr. Tauzin. Thank you, Mr. Gordon. Mr. Oxley for a round of 
questions.
    Mr. Oxley. Thank you, Mr. Chairman.
    Mr. Sugrue, welcome back.
    Mr. Sugrue. Thank you.
    Mr. Oxley. Phase I, as you know, was for carriers to 
provide cell site and sector and call-back numbers. That was to 
be implemented last April. As I understand it, it is only about 
two, 3 percent of the country that has complied with Phase I 
today. Is that about correct?
    Mr. Sugrue. The last figure I saw was 7 percent, but small, 
yes.
    Mr. Oxley. Okay. And, as you know, with Phase II is 
relocation and the end date is October 1, 2001. What has the 
FCC proposed in terms of the implementation of Phase II and is 
there any reason to think it would be analogous to Phase I or 
is there some hope that it might accelerate?
    Mr. Sugrue. Well, NENA did a survey as to what were the 
problems with Phase I. By far the largest problem--among PSAPs, 
public safety answering points, by far the largest problem 
identified was lack of funding. Those funding issues are being 
addressed at the localities with the industry. I personally 
consider it unfortunate that the provision in the last year's 
legislation that would have assisted that process was taken 
out. I understand why. But I would urge the subcommittee there 
is a way to sort of address that issue, because that has been 
sort of the major problem.
    The hope is over the next couple of years that those 
funding issues one way or another get addressed because we can 
require the carriers to implement all we want if on the public 
safety side, there isn't the wherewithal to make those 
investments and the network upgrades. It won't work.
    Mr. Oxley. Well, it is pretty obvious that the 
technological obstacles have pretty much been overcome, so now 
all of a sudden--well, not all of a sudden, but essentially the 
barriers now are financial, political, and legal. Is that a 
safe assumption?
    Mr. Sugrue. I would say those are major barriers, yes. I 
wouldn't quite rule out all the technological things, but there 
has been more progress on the technology than on all those 
other fronts, yes.
    Mr. Oxley. I was struck by the discussion about Rock Creek 
Park and my experience in my home when I am here as to how 
quickly Bell Atlantic was able to get a monopole erected in our 
neighborhood, working hand-in-glove with VDOT. And, I mean, 
that thing came out of the ground so fast it would make your 
head swim. And it brought to mind and it brought home very 
starkly how quickly these folks can act if they really have a 
desire to do that.
    Now, admittedly, we are near the Beltway and that has a 
major component to it. But there is, obviously, a difference in 
the agencies and how they cooperate in this area. It is most 
interesting. Of the three, in your experience--that is, 
financial, political, and legal--what is going to be the major 
obstacle? Is there one of the three that is more important or 
more of an obstacle than the others?
    Mr. Sugrue. Well, since my hands-on experience has been 
literally 2 weeks, I would have to say all three, in the course 
of that experience. The tower siting issue is absolutely 
critical and we have talked about why. It is not just quality 
of service. It is safety. It is competition so that new 
competitors can get out there. I would like to work with Tom 
Wheeler and CTIA to address that. However, the law seems pretty 
clear that the folks who have the lead are the State and local 
governments and so we will have to work cooperatively and maybe 
providing guidance but I don't see a lot of way clear to do 
some of the preemptive things CTIA would like us to do 
sometime.
    If Congress would have provided us with more authority, at 
least on behalf of the wireless bureau, we wouldn't hesitate to 
exercise it. But Congress in its wisdom has drawn the line 
differently, as far as I see it, on that issue.
    Mr. Oxley. Well, and as you know, it was a balancing act 
that we were attempting, you know--understanding the real needs 
of local communities----
    Mr. Sugrue. Absolutely.
    Mr. Oxley. [continuing] and local leaders. I wouldn't say 
it was necessarily a bad experience that I went through, but 
clearly there were folks in our neighborhood that would not 
share that view. I had an experience in my district of erecting 
a monopole in a neighborhood, right smack-dab in the middle of 
a residential neighborhood. So I think we do have to be 
sensitive to local concerns and local zoning and local leaders 
and, obviously, that is what the law tried to reconcile, and it 
is obviously not all black and white.
    Mr. Wheeler. Mr. Oxley, I think the point that you just 
made, the point that Tom Sugrue just made are right on target. 
We understand what this committee has said. We understand what 
the Commission has said, in terms of no, we will not preempt. 
And I guess what I was suggesting earlier and hoping that maybe 
we can open a new course. There is enough brain power here that 
we ought to be able to solve this.
    Mr. Oxley. Well, if I could just add this: We had a 
situation in our neighborhood where there was an offer to move 
that site to the other side of the Beltway on a commercial 
piece of property. And because of, in my estimation, the rush 
to get this thing done, it was essentially ignored. And we 
were, frankly, never given any real reason why the other 
location would have not made more sense. And I was never 
totally satisfied that it wasn't other than this rush to get 
this thing done under enormous pressure. And, to that extent, I 
think some of the local concerns were ignored.
    Mr. Wheeler. I hope you get to the point where there is 
some kind of a statement that says to localities, as I said, 
this isn't the McDonald's. This isn't your average thing. This 
is about safety. Let us see how we can respect that while 
respecting local rights.
    Mr. Oxley. Thank you.
    Mr. Tauzin. Thank you, Mr. Oxley. Then for the final 
questions, then we will break for this vote, and I think we 
will wrap up. The gentleman from New York, Mr. Engel.
    Mr. Engel. Okay. Thank you. Thank you, Mr. Chairman. I will 
try to hurry it up.
    Essentially, we were frustrated in that we want to see this 
implemented by 2001 and frustrated at the waivers because 
everything seems to be delay and delay.
    I want to ask Mr. Amarosa, since I am from New York and so 
is he, and I want to hear his accent.
    I would like you, if you could explain, now I understand 
the network technology is there now. And going to the headset 
technology supposedly makes it more accurate. If we are talking 
about the difference between 100 feet and 400 feet, then what 
is the big deal? Why should we delay for accuracy that, to me, 
is inconsequential if we can implement this now onto the 
network solution? So could you comment on that?
    Mr. Amarosa. Sure, and I would happy to expose my accent to 
you as well, sir. I am from the Bronx.
    Mr. Engel. I know where you are from, sir. We sound alike.
    Mr. Amarosa. I don't think we can hide that. I think what 
you have to look at, though, is two things. No. 1, I think that 
the network technology that is available today is in compliance 
with the FCC rules. And I think what you have seen through many 
of the companies that have utilized that network technology is 
that it is there. It is working. And it can come within the 410 
feet at this given point in time. And I think that accuracy 
will be improved as time goes on.
    The proposals on the other types of solutions that exist 
have not been fully proven in commercial applications or in 
field tests to date. Right now it is a hypothesis that it can 
do better and it will do better is what the intention is. And 
that we haven't seen. So that when you are dealing with the 
level of accuracy issue, I think you have to look at as well 
what can be done now and how well it can be done today. 
Tomorrow or the next day, a year from now, if there is 
something better that comes along I think that is part of the 
competition issue and the marketplace issue as to what can 
better improve that accuracy at that given point once that is 
proven.
    Mr. Engel. Yes, Mr. Sugrue, why wait? Why impose all these 
other costs to consumers that may need to have to buy new 
phones as a result? I just don't understand why the delay? 
Everything is a tradeoff. And it seems to me if we are going to 
push it back, further back to 2001, is it really worth the 
delay to do all these waivers just to go from network to 
headset? I am not convinced. I can be convinced, but I am not 
convinced yet.
    Mr. Sugrue. Okay. I have just got to admit that I am from 
Queens. I may have lost my accent, but----
    Mr. Engel. Okay.
    Mr. Sugrue. But I went to----
    Mr. Engel. Shame on you.
    Mr. Sugrue. But I went to high school in the Bronx.
    Mr. Tauzin. You all sound kind of funny to me.
    Mr. Sugrue. We established this deadline of October 2001. 
We are not backing off that. What we are looking at is whether 
the way one measures compliance needs to be modified in light 
of competing technology that has emerged on the scene. That is 
pretty much it. We want that out there as soon as possible.
    The carrier community has asked us to look at this issue 
and I am not in the position--I don't want to--I am not the 
technology proponent and they are not here to debate which one 
is better. We are going to be gathering comments on that. It 
seemed a legitimate request to come in because, again, at least 
as I understand it, just the way the measurements were defined 
preclude this other technology from satisfying this 
requirement.
    Mr. Tauzin. We thank you.
    Mr. Sugrue. Yes.
    Mr. Tauzin. Mr. Sugrue, we have to go make this vote. The 
Chair thanks you all for your attendance and your cooperation 
and your help. These bills will move fast, maybe as early as 
next week, if we have time pending the coming retreat. So if 
you have any additional comments or additional suggestions, get 
them to us quick. We thank you very much and we look forward to 
seeing you as we move these bills along.
    The committee stands adjourned.
    [Whereupon, at 12:15 p.m., the subcommittee was adjourned.]
    [Additional material submitted for the record follows:]
   Prepared Statement of Jackie N. Dukes, President, Rural Cellular 
                              Association
    On behalf of the members of the Rural Cellular Association (RCA), I 
want to take this opportunity to thank the Subcommittee on 
Telecommunications, Trade, and Consumer Protection for this opportunity 
to submit comments on pending legislation: the Wireless Communications 
and Public Safety Enhancement Act of 1999 and the Wireless Privacy 
Enhancement Act of 1999. We applaud the subcommittee for moving 
expeditiously to consider these bills in the 106th Congress.
    RCA is an association representing the interests of small and rural 
wireless companies providing commercial services to subscribers 
throughout the nation. RCA member companies provide wireless services 
to predominantly rural areas that have an aggregate population of more 
than six million people. Among our members' subscribers are entities 
and individuals who are involved in a range of community activities, 
including community and regional health care and safety operations. 
Many RCA members serve military installations. The association was 
formed in 1993 as a way to begin to address the very distinctive needs 
of rural cellular providers. RCA is a gathering place for companies to 
share problems and solutions covering a wide spectrum of industry 
concerns, such as marketing, roaming, fraud, billing, operations, 
customer service, and legislative and regulatory issues. We also serve 
as a clearinghouse to help rural carriers stay current with issues and 
actions impacting the industry.
    More importantly, RCA member companies are distinguished not only 
by the size of their markets and customer base, but also by the 
relationship that we have with our customers. By virtue of our size and 
our valued role within the community, our customers are our neighbors 
and our friends. In some cases, RCA member companies that operate as 
cooperatives are owned by their customers. RCA members are integral 
parts of the communities in which we operate. We also are a critical 
part of the local economy, and we help to fund a variety of charitable 
interests within our community. RCA is more than another trade 
association; we represent the needs of rural America.
    Precisely because issues covered in the two pieces of legislation 
before the subcommittee today have generated significant discussion and 
debate in recent years, RCA will confine its comments at this time to 
liability issues associated with the proposed Wireless Communications 
and Public Safety Enhancement Act of 1999.
    RCA member companies have a great deal of information about the 
unique circumstances in which small and rural carriers now find 
themselves, and we stand willing to share this information on an 
ongoing basis with this subcommittee. We also are prepared to help our 
member companies understand how decisions made by this Congress and the 
Federal Communications Commission (FCC) impact service delivery and how 
our member companies can best implement the policy decisions made by 
this body and its regulatory arm.
    As this Congress knows, the current state of the telecommunications 
marketplace is in flux as the legislative and regulatory branches of 
government and the industry work to make the transition to a more 
competitive marketplace. Together, we are exploring this grand 
experiment that has its roots in the Telecommunications Act of 1996. 
Many in Congress, many industry observers, and many of us in the 
industry recognize that the time is nearing for a reexamination of how 
the Act is being implemented, including an assessment of whether we are 
making progress in realizing Congress' legislative goal to make the 
industry more competitive. As small and rural carriers, we will be able 
to bring a very unique perspective to this issue by virtue of our size, 
customer base, and the nature of the communities that we serve.
    By enacting the Telecommunications Act of 1996, the U.S. Congress 
committed the nation to a telecommunications policy intended to foster 
competition in the marketplace to improve consumer service. As small 
and rural wireless companies, we, too, are strongly committed to 
working with the Congress and the FCC to ensure a truly competitive 
marketplace. We take very seriously Congress' intent in the passage of 
the 1996 law that competition will ensure quality service delivery. As 
small and rural operators, we stand strongly on the side of delivering 
quality services to our customers. Over the long run, the survival of 
our companies and the well-being of our communities depend on a 
marketplace that enables us to compete effectively through the delivery 
of quality services. From a service delivery and marketing perspective, 
that is our competitive advantage! Ultimately, the consumer will be the 
beneficiary; but, first and foremost, we must be able to compete.
    Our primary interest at this point is to ensure that the FCC does 
not misinterpret the will of the Congress and so overburden small and 
rural companies with unnecessary regulations as to make it more 
difficult, if not impossible, for us to compete effectively. Any 
governmental action that makes it more difficult for us to meet our 
customers' needs or unfairly tips the fragile scales of the competitive 
marketplace makes it more difficult for us to do business in the way 
our customers want and demand.
    Like many in this nation, we are very supportive of actions taken 
by government at all levels to improve the ability of the nation's 
infrastructure to meet the needs of all Americans, especially at times 
in which people require emergency services. The Wireless Communications 
and Public Safety Act of 1999 would designate 911 as the universal 
emergency telephone number within the United States for reporting an 
emergency to appropriate authorities and to request assistance. 
Although this legislation applies both to wireline and wireless 
telephone service, the membership of RCA recognizes that the goal of 
the legislation poses some challenges for consumers in small and rural 
areas.
    As companies serving small and rural areas, we know from experience 
that 911 services save lives in rural America. Yet, we must recognize 
other fundamental realities as well. First, it is critical that 
legislation enacted in this Congress to designate 911 as the universal 
emergency telephone number for both wireline and wireless telephone 
service includes a provision to provide immunity from liability for 
providers of wireless 911 service to the same extent as provided to 
local telephone exchange companies. And second, this immunity from 
liability should be a uniform standard provided by the federal 
government.
    The need for immunity from liability has been stated many times and 
on many occasions before the subcommittee. Local telephone exchange 
companies already enjoy this immunity; so, too, should wireless 
carriers. This Congress has demonstrated time and again a sensitivity 
to the fact that we live in a highly litigious society. Moreover, as 
much as we would like to acknowledge and recognize the sophistication 
of current day technology, the practical reality is that technology--
through no fault of the carrier--has not always kept pace with the 
public's ever burgeoning expectations in the telecommunications arena, 
especially as it relates to emergency services. Newspapers nationwide 
often carry stories about people unable to access 911 emergency 
services. In fact, just this past week, newspapers were filled with 
stories about the failure of 911 services in New York City, one of the 
largest population centers in the world. For those of us providing 
services in rural areas, we can provide anecdotal information about 
incidents in which emergency services--again, through no fault of the 
carrier--might not have functioned optimally.
    Ultimately, it is important for the national public interest that 
universal 911 services are available. But, it is equally important to 
recognize that this means we will be providing 911 services for those 
who are not subscribers to our systems or, perhaps, to any wireless 
system. Without some protection, there is no universal methodology to 
limit a carrier's liability for this activity. Since small and rural 
carriers will be required by the federal government to provide this 
service, it is important that we have immunity from liability for 
events, circumstances, and technologies that are beyond our control. 
Rational risk management is crucial for small and rural carriers. We 
are asking Congress, also, to take a rational approach to this issue by 
providing the same type of immunity from liability as provided to local 
telephone exchange companies.
    RCA recognizes that it is most appropriate for the federal 
government to take responsibility for providing this immunity from 
liability. We believe this immunity should be uniform throughout the 
country. Although it would make sense for carriers operating in states 
that have such immunity to fall under state statutes, it would not be 
prudent to penalize the majority of small and rural carriers who 
operate in states without this immunity from liability. Additionally, 
the burden for securing legislation at the state level should not fall 
on small and rural carriers (or any carriers), since it is the federal 
government that is seeking the universal 911 service. This 
responsibility should not be shifted to our shoulders. Nor should small 
and rural carriers be required to divert even more resources which 
would only exacerbate the cumulative impact of complying with overly 
burdensome regulations. We ask only for a universal federal standard 
for immunity from liability.
    In conclusion, we support the establishment of universal 911 
emergency services. We believe the most effective approach for Congress 
to realize this objective in a way that is consistent with the goals of 
the Telecommunications Act of 1996 is to provide immunity from 
liability for wireless carriers. This is especially critical for small 
and rural wireless carriers. This type of effective and common sense 
approach to legislation will ensure that public safety requirements are 
met without unnecessarily draining the limited resources of small and 
rural carriers. This also will help to ensure that small and rural 
carriers can continue to provide the quality of service that our 
communities demand.

</pre></body></html>
